<html>
<title> - NO CHILD LEFT BEHIND: SUCCESSES AND CHALLENGES OF IMPLEMENTATION IN URBAN AND SUBURBAN SCHOOLS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                    NO CHILD LEFT BEHIND: SUCCESSES
                    AND CHALLENGES OF IMPLEMENTATION
                     IN URBAN AND SUBURBAN SCHOOLS

=======================================================================

                             FIELD HEARING

                               before the

                    SUBCOMMITTEE ON EDUCATION REFORM

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                 August 28, 2006, in Chicago, Illinois

                               __________

                           Serial No. 109-53

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
29-626                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

            HOWARD P. ``BUCK'' McKEON, California, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California,
    Chairman                           Ranking Minority Member
Michael N. Castle, Delaware          Dale E. Kildee, Michigan
Sam Johnson, Texas                   Major R. Owens, New York
Mark E. Souder, Indiana              Donald M. Payne, New Jersey
Charlie Norwood, Georgia             Robert E. Andrews, New Jersey
Vernon J. Ehlers, Michigan           Robert C. Scott, Virginia
Judy Biggert, Illinois               Lynn C. Woolsey, California
Todd Russell Platts, Pennsylvania    Ruben Hinojosa, Texas
Patrick J. Tiberi, Ohio              Carolyn McCarthy, New York
Ric Keller, Florida                  John F. Tierney, Massachusetts
Tom Osborne, Nebraska                Ron Kind, Wisconsin
Joe Wilson, South Carolina           Dennis J. Kucinich, Ohio
Jon C. Porter, Nevada                David Wu, Oregon
John Kline, Minnesota                Rush D. Holt, New Jersey
Marilyn N. Musgrave, Colorado        Susan A. Davis, California
Bob Inglis, South Carolina           Betty McCollum, Minnesota
Cathy McMorris, Washington           Danny K. Davis, Illinois
Kenny Marchant, Texas                Raul M. Grijalva, Arizona
Tom Price, Georgia                   Chris Van Hollen, Maryland
Luis G. Fortuno, Puerto Rico         Tim Ryan, Ohio
Bobby Jindal, Louisiana              Timothy H. Bishop, New York
Charles W. Boustany, Jr., Louisiana  [Vacancy]
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York
[Vacancy]

                       Vic Klatt, Staff Director
        Mark Zuckerman, Minority Staff Director, General Counsel
                                 ------                                

                    SUBCOMMITTEE ON EDUCATION REFORM

                 MICHAEL N. CASTLE, Delaware, Chairman

Tom Osborne, Nebraska, Vice          Lynn C. Woolsey, California,
    Chairman                           Ranking Minority Member
Mark E. Souder, Indiana              Danny K. Davis, Illinois
Vernon J. Ehlers, Michigan           Raul M. Grijalva, Arizona
Judy Biggert, Illinois               Robert E. Andrews, New Jersey
Todd Russell Platts, Pennsylvania    Robert C. ``Bobby'' Scott, 
Ric Keller, Florida                      Virginia
Joe Wilson, South Carolina           Ruben Hinojosa, Texas
Marilyn N. Musgrave, Colorado        Ron Kind, Wisconsin
Bobby Jindal, Louisiana              Dennis J. Kucinich, Ohio
John R. ``Randy'' Kuhl, Jr., New     Susan A. Davis, California
    York                             George Miller, California, ex 
Howard P. ``Buck'' McKeon,               officio
    California,
  ex officio
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on August 28, 2006..................................     1

Statement of Members:
    Biggert, Hon. Judy, a Representative in Congress from the 
      State of Illinois..........................................     1
        Prepared statement of....................................     3
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois..........................................     3

Statement of Witnesses:
    Duncan, Arne, chief executive officer, Chicago Public Schools    11
        Prepared statement of....................................    14
    Johnson, Henry L., Assistant Secretary for Elementary and 
      Secondary Education, U.S. Department of Education..........     7
        Prepared statement of....................................     9
    Kimmelman, Paul, senior advisor, office of the CEO, Learning 
      Point Associates...........................................    22
        Prepared statement of....................................    23
    Piche, Dianne M., executive director, Citizens' Commission on 
      Civil Rights...............................................    26
        Prepared statement of....................................    29
        Excerpts from report: ``Days of Reckoning--Are States and 
          the Federal Government Up to the Challenge of Ensuring 
          a Qualified Teacher for Every Student?''...............    48
    Ruscitti, Darlene, regional superintendent of schools of 
      DuPage.....................................................    16
        Prepared statement of....................................    19

Additional Submission:
    Testimony submitted by Mary E. Penich, Lake County assistant 
      regional superintendent of schools; Charleen Cain, teacher 
      leader, Northern Illinois Reading Recovery Consortium; and 
      Barbara Lukas, teacher leader and interim director, Reading 
      Recovery Training Center, National-Louis University........    61


                  NO CHILD LEFT BEHIND: SUCCESSES AND
                      CHALLENGES OF IMPLEMENTATION
                     IN URBAN AND SUBURBAN SCHOOLS

                              ----------                              


                        Monday, August 28, 2006

                     U.S. House of Representatives

                    Subcommittee on Education Reform

                Committee on Education and the Workforce

                              Chicago, IL

                              ----------                              

    The subcommittee met, pursuant to call, at 10:30 a.m., in 
room 2525, Dirksen Federal Building, 219 South Dearborn Street, 
Chicago, Illinois 60604, Hon. Judy Biggert [member of the 
subcommittee] presiding.
    Present: Representatives Biggert, Davis, Scott.
    Staff Present: Jill Williams Scott, Legislative Assistant; 
Lloyd Horwich, Professional Staff; Amanda Farris, Professional 
Staff; and Brian Peterson, Legislative Assistant.
    Mrs. Biggert. The Subcommittee on Education Reform of the 
Committee on Education and the Workforce will come to order.
    We are meeting today to hear testimony on No Child Left 
Behind: Successes and Challenges of Implementation in Urban and 
Suburban Schools.
    I ask unanimous consent for the hearing record to remain 
open 14 days to allow member statements and other extraneous 
materials referenced during the hearing to be submitted in the 
official hearing record. Without objection, so ordered.
    With that, I will recognize myself for 5 minutes for an 
opening statement. Good morning. Thank you all for joining us 
today as the Education Reform Committee of the U.S. House 
Education and Workforce Committee hears testimony about the 
impact that No Child Left Behind is having on urban and 
suburban schools and districts in Illinois.
    I look forward to hearing from all of the witnesses who are 
here with us today, and I am very happy to be joined by my 
colleague, Danny Davis, from the city of Chicago, and Bobby 
Scott from the State of Virginia for this hearing today.
    As many of you know, No Child Left Behind acts as a 
critical piece of education legislation that is helping to 
close the achievement gap between the disadvantaged students 
and their more affluent peers. Through the hard work of state 
and local education leaders we can ensure that every child, 
regardless of race, economic background, disability, or 
geography has access to a first-class education.
    The No Child Left Behind Act reflects the four pillars of 
President Bush's education reform agenda--accountability in 
testing, flexibility in local control, funding for what works, 
and expanded parental options. No Child Left Behind also 
requires annual testing of public school students in reading 
and math in grades 3 through 8 and once more in the high 
school.
    Report cards for parents on school achievement levels, 
improved teacher quality requirements that ensure all students 
are being taught by a highly qualified teacher, and public 
school choice and supplemental services options for parents 
with children in underachieving schools.
    I think it is important to point out that No Child Left 
Behind is not a one size fits all mandate. It allows states 
tremendous amounts of flexibility. Individual states are given 
the flexibility to determine a variety of factors, including 
the definition of student proficiency, the starting points for 
measuring the progress of schools, and the amount of progress 
that must be made from year to year.
    They also have the flexibility to develop their own tests 
to determine if existing teachers should be deemed highly 
qualified. I am pleased that it appears that No Child Left 
Behind is working to improve student achievement and reduce the 
achievement gap between disadvantaged students and their more 
fortunate peers.
    The National Assessment of Education Progress 2004 long-
term data trend released in July of 2005 reveals significant 
improvement in overall student achievement with noteworthy 
gains among minority students. According to data presented to 
Congress by the Council of the Great City Schools, urban 
students have posted higher math and reading scores on state 
tests since NCLB was signed into law.
    The Education Commission of the States in their report to 
the Nation has also reported that states are well on their way 
to making the law work in our public schools. Next year, No 
Child Left Behind is slated to be reauthorized by Congress. And 
to lay the foundation for this effort, the House Education 
Committee is in the midst of a series of hearings on many of 
the law's key aspects.
    Over the past several months we have hosted educators who 
have traveled to Washington, D.C. to provide testimony on a 
variety of issues related to the Act. However, I am especially 
eager today for this hearing, because we are no longer inside 
the Washington Beltway.
    Here in cities like Chicago, suburbs like my hometown of 
Hinsdale, and scores of communities both large and small, NCLB 
is more than just a piece of legislation. It is a reality, and 
to get a better sense of how the law is working across the 
nation, not just from the perspective of the Washington 
environment, field hearings such as the one we are holding 
today are absolutely vital.
    And with that said, I look forward to hearing from all the 
witnesses about how NCLB is being implemented in Illinois. I am 
confident that your testimony will help us to better understand 
the important issues surrounding the implementation of the Act 
and help us prepare for this reauthorization.
    And with that, I will offer my--or I will call on my 
colleague, Mr. Davis, for his opening statement.
    [The prepared statement of Mrs. Biggert follows:]

 Prepared Statement of Hon. Judy Biggert, a Representative in Congress 
                       From the State of Illinois

    Good morning. Thank you all for joining us today as the Education 
Reform Subcommittee of the U.S. House Education and the Workforce 
Committee hears testimony about the impact that No Child Left Behind is 
having on urban and suburban schools and districts in Illinois. I look 
forward to hearing from all the witnesses who are with us today.
    As many of you know, the No Child Left Behind Act is a critical 
piece of education legislation that is helping to close the achievement 
gap between disadvantaged students and their more affluent peers. 
Through the hard work of state and local education leaders, we can 
ensure that every child--regardless of race, economic background, 
disability, or geography--has access to a first-class education.
    The No Child Left Behind Act reflects the four pillars of President 
Bush's education reform agenda: accountability and testing, flexibility 
and local control, funding for what works, and expanded parental 
options. No Child Left Behind also requires annual testing of public 
school students in reading and math in grades 3-8 and once during high 
school, report cards for parents on school achievement levels, improved 
teacher quality requirements that ensure all students are being taught 
by a highly qualified teacher, and public school choice and 
supplemental service options for parents with children in 
underachieving schools.
    I think it is important to point out that No Child Left Behind is 
not a one size fits all mandate. It allows states a tremendous amount 
of flexibility. Individual states are given the flexibility to 
determine a variety of factors, including the definition of student 
proficiency, the starting point for measuring the progress of schools, 
and the amount of progress that must be made from year to year. They 
also have the flexibility to develop their own tests to determine if 
existing teachers should be deemed highly qualified.
    I am pleased that it appears that No Child Left Behind is working 
to improve student achievement and reduce the achievement gap between 
disadvantaged students and their more fortunate peers.
    The National Assessment of Education Progress 2004 long-term trend 
data (released in July 2005) reveals significant improvements in 
overall student achievement, with noteworthy gains among minority 
students. Gains in student achievement are particularly striking over 
the last five years, and student achievement is up overall within the 
three decade comparison.
    According to data presented to Congress by the Council of the Great 
City Schools, urban students have posted higher math and reading scores 
on state tests since NCLB was signed into law. The Education Commission 
of the States, in their Report to the Nation, has also reported that 
states are well on their way to making the law work in our public 
schools.
    Next year, No Child Left Behind is slated to be reauthorized by 
Congress. To lay the foundation for this effort, the House Education & 
the Workforce Committee is in the midst of a series of hearings on many 
of the law's key aspects. Over the past several months, we've hosted 
educators who have traveled to Washington, DC to provide testimony on a 
variety of issues related to No Child Left Behind. However, I'm 
especially eager for today's hearing because we're no longer inside the 
Washington Beltway.
    Here--in cities like Chicago, suburbs like my hometown of 
Naperville, and scores of communities, both large and small--No Child 
Left Behind is more than just a piece of legislation. It's reality. And 
to get a better sense of how the law is working across the nation--not 
just from the perspective of the Washington establishment--field 
hearings such as the one we're holding today are absolutely vital.
    With that said, I look forward to hearing from all of the witnesses 
about how No Child Left Behind in being implemented in Illinois. I am 
confident that your testimony will help us to better understand the 
important issue surrounding the implementation of No Child Left Behind 
and help us prepare for the reauthorization of this important law.
                                 ______
                                 
    Mr. Davis. Thank you very much, Representative Biggert, and 
first of all let me welcome all of our participants from out of 
town who have agreed to come to Chicago during the month of 
August. There are some places where people wouldn't say that 
Chicago is the most delightful place to be during summer 
recess. But it is a great city, and we are pleased that all of 
you have come to join us.
    I want to thank you, Congresswoman Biggert, for the 
tremendous leadership that you have displayed as we both serve 
on the Education Committee, along with Representative Bobby 
Scott from Virginia who is here today also.
    I want to thank Chairman Castle and Ranking Member Woolsey 
for holding this hearing to understand how the No Child Left 
Behind law is working in large urban areas like the city of 
Chicago. Special thanks as well to the Chairman and Ranking 
Member of the Committee for their attention to the issue of 
urban----
    [Microphone feedback.]
    Mrs. Biggert. It is just your beautiful voice is so loud.
    [Laughter.]
    Try that now.
    Mr. Davis. Maybe that will work. Schools and to the 
majority and minority staff members for bringing everything 
together to make a hearing like this take place.
    [Microphone feedback.]
    And I am reminded of an old Chinese proverb that says if 
you plan for a year so that----
    [Microphone feedback.]
    My constituents and I have a number of concerns related to 
the implementation of No Child Left Behind. In the series of 
town hall meetings that I held in the last year, Chicagoans and 
some of our suburban constituents have voiced concerns that 
children are expected to learn and teachers to teach to high 
schools without adequate funding.
    Significant funding increases are necessary to ensure that 
states and local school districts are able to comply with 
Federal requirements. No cuts of approximately $1 billion has 
occurred in fiscal year 2006.
    Chicagoans also wanted to see a greater emphasis on 
strategies that work, such as smaller class sizes, high quality 
staff development, and parental involvement, with less emphasis 
on test scores, teaching to the test, and punishing schools. In 
addition, the equitable distribution of qualified teachers is a 
key civil rights issue for students--a right that recently it 
was unfortunately revealed we are not adequately protected.
    We must make sure that all children are provided 
experienced and qualified teachers, and we must focus on ways 
to measure student and school progress in the most accurate way 
possible.
    Three covenants that I also like to hear about education is 
something that Abraham Lincoln was supposed to have said, 
Malcolm X, and then Harriet Tubman. Lincoln was supposed to 
have said at one time that education makes a man easy to lead 
but difficult to drive, easy to govern but impossible to 
enslave.
    Malcolm X said one time that education is our passport to 
the future for tomorrow belongs to those who prepare today. And 
Harriet Tubman was supposed to have said one time that 
education is a dangerous thing in the minds of some. They say 
that it makes fools out of people. And then she said, ``But I 
know more fools who don't have any.'' It is my position--and we 
hope--that we can make sure that there are no children who grow 
up as fools in our country, because they have not been 
adequately educated.
    I want to thank the panelists for coming to join us. Again, 
I thank you, Representative Biggert, for your leadership and 
look forward to the testimony of the witnesses.
    Mrs. Biggert. Thank you, Representative Davis.
    Representative Scott, do you have an opening statement?
    Mr. Scott. Thank you very much. I just want to make a 
couple of brief comments and congratulate you, Mrs. Biggert, 
and Danny Davis, for your leadership--both of you for your 
leadership on the Education and Workforce Committee.
    Coming from out of town, I guess I am here to validate the 
fact that you are in fact good leaders on the Education 
Committee and both support No Child Left Behind, and make sure, 
as you indicated earlier, that we are not in a rush trying to 
slap something together at the last minute. We won't 
reauthorize No Child Left Behind until next year, but hearings 
such as this would make sure that when we do it we will do it 
in an intelligent fashion.
    The goal of No Child Left Behind is to improve education. 
That is a crucial goal in the global economy. We are competing 
not just with Chicago. I represent southeast Virginia. We are 
also competing all over the world. And those who have the best 
educated workforces will have the most jobs.
    The education is important not only to the individual 
student. Obviously, the more you learn the more you learn, and 
a person's station in life to a large extent is decided by 
their level of education. But it is also important for the 
community. Those communities with the best educated workers 
will get the most jobs. Those with the best education will 
suffer less social services. Those with the best education will 
suffer less crime. It is crucial for the quality of life for a 
community to improve education.
    No Child Left Behind sets up a good framework for us to 
improve education through the accountability, but the tests 
themselves do not improve education.
    I represent a rural area, and my farmers tell me that you 
don't fatten a pig by weighing the pig. You don't improve 
education by giving a test. We need to make sure that No Child 
Left Behind not only exposes the shortcomings in some areas, 
but also gives them the tools to improve education. And there 
are a number of areas that we have to look at to make sure that 
the incentives and sanctions gave the right incentives to 
actually improve education.
    Are the sanctions effective in improving education? What 
happens when a school does not meet adequate yearly progress? 
Are the measures appropriate, so we know which schools are in 
fact not making adequate yearly progress? Are we discouraging 
dropping out or encouraging dropping out? And how do we measure 
what an effective teacher is? Are these effective measures that 
we are actually improving education?
    All of those--the framework works for improving education. 
We need to make sure that we are doing everything we can to 
address the important goal of improving education. Part of the 
challenge of No Child Left Behind is it tells us what to do. We 
have to improve education.
    We have to make sure that also under No Child Left Behind 
we are giving the school divisions the how to do it. And I 
think that has been a little absent so far. We tell them what 
to do, and hopefully with best practices and other incentives, 
those who are not making adequate yearly progress will know 
what to do to improve.
    So, Mrs. Biggert, I want to thank you for your leadership, 
for calling these hearings, so that we can be much more 
informed when we reauthorize No Child Left Behind next year. 
And thank Danny Davis also for his dedication and leadership in 
education all children.
    Thank you very much.
    Mrs. Biggert. Thank you, Mr. Scott, and thank you, Mr. 
Davis.
    We have a very distinguished panel of witnesses before us, 
and I thank them all for coming. And I am going to introduce 
each one, and we will go from the left to right, and then each 
witness will have 5 minutes to summarize their testimony before 
the question and answer period.
    First, we have to my left is Dr. Henry Johnson. He has 
served as the Assistant Secretary for Elementary and Secondary 
Education at the U.S. Department of Education since July of 
2005. Dr. Johnson's 30-plus years as a professional educator 
include 7 years as a science and mathematics classroom teacher, 
3 years as a principal, and 2 years as director of middle 
school programs for the Wake County school system in North 
Carolina. He also served as the State Superintendent of 
Education in Mississippi and has headed the Office of 
Instructional and Accountability Services as Associate State 
Superintendent in North Carolina's Department of Public 
Instruction. Welcome, Dr. Johnson.
    And I will yield to Mr. Davis for the introduction of our 
next witness.
    Mr. Davis. Thank you very much, Representative Biggert. I 
want to thank you for the opportunity to introduce Mr. Arne 
Duncan, who is Chief Executive Officer of the Chicago Public 
Schools system, obviously one of the largest systems in the 
nation. I don't think Arne has ever been introduced quite this 
way, as being the youngest person that I have ever known to run 
the Chicago Public Schools.
    I was thinking about that the other day, Arne, that I have 
known lots of superintendents since I have been in Chicago, but 
I have never known a person as young as you who has been 
charged with the awesome responsibility of being the Chief 
Executive Officer for this large urban problem-plagued school 
district.
    And I think that during your tenure you have demonstrated 
that you have the ability not only to provide the leadership, 
but the fact that you interact in a certain way with students 
oftentimes serves as an inspiration. Mr. Duncan is a former 
professional athlete who likes to play basketball, and it is 
nothing unusual to see Arne playing basketball with some of the 
students who may be members of the Chicago Public Schools 
system. And that has brought another level of affinity.
    And so we appreciate the tremendous work that you have 
done, the opportunity that we have had to work with you and Ray 
Anderson and others in the Chicago Public Schools setup, and 
look forward to your presentation.
    Mrs. Biggert. Thank you. And next we have Dr. Darlene 
Ruscitti, is the Regional Superintendent of Schools for DuPage 
County right here in Illinois--and part of it is in my 
district--where she is currently implementing a strategic 
planning process to harness resources across DuPage County to 
more effectively serve all local students.
    She has also served as the Staff Developer and Trainer 
Program and Grants Manager and the Assistant Regional 
Superintendent for DuPage County Schools. Dr. Ruscitti earned 
her Doctor of Education degree from Loyola University in Policy 
Studies and Administration.
    Next is Dr. Paul Kimmelman, is the Senior Advisor in the 
Office of the CEO at Learning Point Associates, a non-profit 
educational organization which assists educators and 
policymakers in making-based decisions to produce sustained 
educational improvement for students. He has worked in K 
through 12 education for over 30 years as a teacher, assistant 
high school principal, middle school principal, assistant 
superintendent, and superintendent.
    Dr. Kimmelman's newest book--and I have an autographed copy 
of it--``Implementing NCLB: Creating a Knowledge Framework to 
Support School Improvement,'' was released in April of this 
year. Welcome.
    And we have Ms. Dianne M. Piche. Ms. Piche is the Executive 
Director of the Citizens' Commission on Civil Rights, a group 
committed to monitoring the civil rights policies and practices 
of the Federal Government. As a civil rights lawyer she is 
specialized in legislation and litigation to promote 
educational equity and has represented plaintiff school 
children in desegregation cases.
    Prior to assuming her current position, Ms. Piche directed 
the Commission's Title I monitoring project, which examined the 
impact of education reform.
    And again, before you begin, I would ask that each of you 
limit your statements to 5 minutes. And then, your entire 
written testimony will be included in the official record.
    Dr. Johnson, we will start with you.

     STATEMENT OF HENRY JOHNSON, ASSISTANT SECRETARY, U.S. 
                    DEPARTMENT OF EDUCATION

    Mr. Johnson. Thank you very much. Good morning to all of 
you, Chairwoman Biggert, Congressman Davis, Mr. Scott, and to 
the distinguished members of this panel. I am pleased to be in 
Chicago today with my friend and colleague, Arne. We have had 
numerous conversations, and I am pleased to be part of this 
panel. Arne has shown visionary leadership in Chicago.
    When President Bush signed No Child Left Behind into law in 
January of 02, our nation embraced what is seemingly a very 
deceptive and most but historic goal, that of ensuring that 
every boy and girl has grade level skills in reading and 
mathematics by 2014. We are now into the fifth year of 
implementation of No Child Left Behind. While it hasn't been 
easy, I believe there is strong evidence that the law is 
working and making a positive difference in the lives of school 
children in this country. Data suggests that we are on the 
right track.
    One simple but critically important change is that before 
No Child Left Behind was enacted it wasn't always easy for a 
parent or a legislator to be able to answer the question: Just 
how good is our school? How well are our students doing? No 
Child Left Behind is helping to answer those questions. And it 
wasn't just urban and suburban--it wasn't just suburban schools 
and urban schools being left behind.
    Kids in those schools, poor and minority kids, all over the 
country there were schools and still are schools in which not 
all kids are achieving grade level standards. But No Child Left 
Behind is working to improve the educational outcome for those 
students.
    Just a couple of statistics. Chairwoman Biggert, you 
mentioned the NAEP results. In our nation's reportcards, the 
reportcard for 2005, reading and math scores for African-
American and Hispanic 9 year-olds reached an all-time high. 
Math scores for African-American and Hispanic 13 year-olds 
reached an all-time high. Achievement gaps in reading and math 
between white and African-American 9 year-olds, and between 
white and Hispanic 9 year-olds are at an all-time low. Progress 
is being made.
    Here in Illinois, you are doing some really good things. 
Illinois recognized 683 schools by announcing the Illinois 
Honor Roll. Most impressive are the spotlight students, the 316 
of those schools that met or exceeded No Child Left Behind 
adequate yearly progress requirements over the past 2 years, 
even though at least 50 percent of the students come from low 
income families.
    A lot of work is yet to be done. One of the things that the 
Department has requested is funding of $200 million from 
Congress for school improvement. We think that a school 
improvement grant, should Congress see fit to allocate this 
money, will go a long way in helping to build capacity at the 
state level, so that state departments can help build capacity 
at the district level.
    In Illinois, for example, despite the progress demonstrated 
by the Illinois Honor Roll, we saw a number of schools 
identified for restructuring. Some of this money can be used 
for restructuring, which is the most far-reaching stage of 
school improvement. It requires fundamental change and reform 
after a school has missed adequate yearly progress for 5 years.
    We think that teaching is essential. After all, schooling 
is about teaching and learning. It is observable, it is 
measurable, and it is dependent more on the ability of the 
teacher than any other single factor. We know that the best way 
to improve schools is to improve the quality of teaching. And 
we also have to add to that the quality of leadership is 
awfully important, what principals do matters, what 
superintendents do matters, what local boards do matters, what 
state education officials do matters.
    We have got to find ways to continue to build capacity at 
the district level and at the state level. The President last 
year, working with Congress, created a teaching incentive fund, 
funded at almost $99 million to encourage more experienced 
teachers to work in high poverty schools and to reward them for 
results. It has been shown to improve student performance.
    We have talked a lot about how to qualify teachers under No 
Child Left Behind. If you followed carefully what has happened 
over the past several months, you would recognize that the 
Department is talking more and more about effectiveness. Highly 
qualified is important. Effectiveness is at least equally 
important.
    In addition to that, we have got to get these highly 
qualified and effective teachers teaching in schools with 
students who have the most needs, and the data has been fairly 
clear that schools have not tended to put their most 
experienced, effective teachers in those situations. And so we 
are encouraging states by way of a plan that they have had to 
write to address that issue.
    And, Madam Chair, my 5 minutes is up, and I will make other 
comments through the Q&A.
    [The prepared statement of Mr. Johnson follows:]

    Prepared Statement of Henry L. Johnson, Assistant Secretary for 
    Elementary and Secondary Education, U.S. Department of Education

    Good morning. Chairwoman Biggert, Congressman Davis, and my 
distinguished colleagues on the panel, thank you for inviting me today 
to discuss the No Child Left Behind Act and its impact on children in 
urban and suburban schools. I am pleased to be here in Chicago with my 
friend and colleague, Arne Duncan. Arne is a visionary who understands 
the promise of No Child Left Behind and never shies away from taking on 
the hard issues to achieve important goals.
    When President Bush signed NCLB into law in January 2002, our 
nation embraced the deceptively modest but historic goal of ensuring 
that every child learns on grade level in reading and math by 2014. We 
are now beginning the fifth school year of implementing the No Child 
Left Behind Act. While it hasn't always been easy, I believe there is 
strong evidence that the law is making a positive difference for 
America's students and their families.
Data Shows We're on the Right Track
    One simple, but critically important change is that before No Child 
Left Behind, if a parent asked how a school was doing, we couldn't 
really answer the question. We had very little annual data about how to 
track the year-to-year progress of students and schools and few 
consistent benchmarks for success. And very few States and school 
districts reported disaggregated assessment data that allowed us to see 
the performance--or too often the underperformance--of poor and 
minority students. Typically, the first hint parents of these students 
had that our schools were not educating their children to high 
standards was when they dropped out of school, couldn't get into 
college, or struggled to find good jobs.
    And it wasn't just urban schools that often left behind poor and 
minority students. Before No Child Left Behind, suburban schools also 
tended to overlook the underachievement of their minority students, 
since they were usually ranked on the basis of schoolwide averages that 
masked this underachievement.
    Now, under No Child Left Behind, and thanks to a lot of hard work 
by people like Arne Duncan, parents and policymakers and teachers and 
taxpayers have a lot more of the data they need to make informed 
decisions about our schools. And while much of this data does indeed 
highlight the many challenges we face in fulfilling the promise of 
NCLB, there also is considerable evidence that we are getting the job 
done.
    Across the country, test scores in reading and math in the early 
grades are rising, and the achievement gap is finally beginning to 
close. I am pleased to say that students who were once left behind, 
often in urban, inner-city schools, now are leading the way, making 
some of the fastest progress. The latest results from the National 
Assessment of Educational Progress, known as the Nation's Report Card, 
tell us that in 2005:
    <bullet> Reading and math scores for African-American and Hispanic 
nine-year-olds reached an all-time high.
    <bullet> Math scores for African-American and Hispanic 13-year-olds 
reached an all-time high.
    <bullet> Achievement gaps in reading and math between white and 
African-American nine-year-olds and between white and Hispanic nine-
year-olds are at an all-time low.
Highlighting the Importance of Improvement
    Here in Illinois, you recently recognized 683 schools by announcing 
the Illinois Honor Roll. Most impressive are your ``Spotlight 
Schools,'' the 316 schools that met or exceeded No Child Left Behind 
adequate yearly progress requirements for the past two years even 
though at least 50 percent of their students are from low-income 
families. These schools are proving the core principle of NCLB: that 
all students, even those from disadvantaged backgrounds, can learn to 
high standards.
    One thing that I really liked about the Illinois Honor Roll is that 
it recognized the importance of improvement by highlighting 306 
additional schools that had demonstrated significant improvement in 
student achievement over the past one or two years. As we move closer 
to 2014, rapid improvement is what No Child Left Behind is all about, 
and these schools are showing that it can be done.
    We think improvement is so important that it is a major focus of 
our budget proposal for education in the coming fiscal year. In 
addition to the roughly $500 million in federal funds that States 
reserve nationwide for distribution to schools identified for 
improvement under NCLB, we are asking Congress to provide an additional 
$200 million in new School Improvement Grants. This proposal would give 
States significant new resources to help turn around low-performing 
schools and school districts, both through direct awards to districts 
and through expanded provision of technical assistance in key areas 
such as the use of proven instructional strategies, selection and 
implementation of research-based curricula, professional development, 
and meeting the needs of students with disabilities and limited English 
proficient students.
    In Illinois, for example, despite the progress demonstrated by the 
Illinois Honor Roll, we also saw the number of schools identified for 
restructuring--the most far-reaching stage of improvement, requiring 
fundamental change and reform after five years of missing AYP--jump 
ten-fold, from just 21 schools in the 2004-05 school year to 238 
schools in the 2005-06 school year. In addition, 30 percent of your 
State's 794 Title I districts were identified for improvement in the 
2005-06 school year. Our School Improvement Grants proposal would help 
Illinois move these schools and districts off the improvement list and 
on to the Honor Roll.
Effective Teaching Is Essential
    We all know that the best way to improve our schools is to improve 
the quality of teaching. Research confirms this and tells us that 
teachers are the most important factor in raising student achievement. 
Despite this knowledge, we typically find our most experienced and 
qualified teachers not in the high-poverty schools most likely to need 
improvement, but in our wealthiest communities that already boast high-
performing schools and high-achieving students. To give you just two 
examples in subjects that are critical to maintaining America's 
competitiveness in the global economy, only half of math teachers in 
our high-poverty middle and high schools majored or minored in 
mathematics. And for science teachers, that number drops to only a 
third.
    We don't serve teachers or students well by placing our least 
experienced teachers in our most challenging environments. Nor do we 
serve teachers well by asking them to teach subjects that they don't 
know much about. It's not right, it's not fair, and it sets teachers--
and students--up for failure.
    If we really want to turn around our low-performing schools and 
give every student, regardless of background, the opportunity to meet 
high academic standards, this needs to change. I know Arne Duncan and 
superintendents like him across the country are doing their best to 
recruit highly qualified teachers for all of their schools, and we are 
working in Washington to provide some tools that can help.
    For example, last year President Bush and the Congress created a 
Teacher Incentive Fund, funded at almost $99 million, to encourage more 
experienced teachers to work in high-poverty schools, and reward them 
for results--an approach that has been shown to improve student 
performance.
    The Fund also supports State and local administrators who develop 
proven models that others could replicate--and I encourage all of you 
who are here to take advantage of that opportunity. We intend to make a 
first round of grants to promising applicants in October.
    You also have a great resource within the State of Illinois, the 
National Comprehensive Center on Teacher Quality. The Department relies 
heavily on the leadership of the Center, which provides support to a 
network of regional comprehensive assistance centers, States, and other 
education stakeholders in strengthening the quality of teaching, 
especially in high-poverty, low-performing, and hard-to-staff schools.
    In addition, the President requested Congress to provide $122 
million to help prepare 70,000 teachers to lead AP and International 
Baccalaureate classes--the kind of rigorous teaching that attracts top 
teachers and that our students desperately need, and $25 million to 
help recruit 30,000 math and science professionals to be adjunct 
teachers in these essential subject areas.
A Continuing Partnership
    I want to conclude by talking a little about the partnerships with 
State and local leaders that we at the Department have tried to build 
while undertaking the enormous and complex task of implementing No 
Child Left Behind. As I mentioned at the beginning of my testimony, 
though expecting all students to be on grade level in reading and math 
appears modest, it is nothing short of revolutionary, and we can't get 
there without your help.
    This is why the Department, especially under the direction of 
Secretary Spellings, has worked hard to balance our commitment to the 
core principles of No Child Left Behind--including annual assessments, 
subgroup accountability, and 100-percent proficiency by 2014--with the 
need for flexibility at the State and local level.
    Last year, Chicago benefited directly from what the Secretary calls 
her ``sensible, workable'' approach to No Child Left Behind. The 
Secretary visited Chicago personally to announce approval of a pilot 
program under which Chicago Public Schools (CPS) was permitted to 
continue providing supplemental educational services (SES) to eligible 
students even though the district had been identified for improvement. 
Prior to this pilot program, school districts identified for 
improvement automatically lost their eligibility to be SES providers.
    In return for this flexibility, CPS agreed to expand outreach to 
parents about SES, provide greater choice of providers, and offer other 
providers increased access to CPS facilities. We are pleased with the 
progress made by CPS in improving SES participation under the pilot 
program, and just last month the Department approved the extension of 
the pilot for the 2006-07 school year.
    To my way of thinking, the Chicago SES pilot is an outstanding 
example of the kind of partnership between the Department and local 
leaders that is making No Child Left Behind work for America's students 
and their families. I look forward, at this hearing and during my stay 
here in Chicago, to hearing about new ways to partner with State and 
local leaders to continue the effective implementation of No Child Left 
Behind.
    Thank you, and I will be happy to answer any questions.
                                 ______
                                 
    Mrs. Biggert. Thank you very much.
    Mr. Duncan, you are recognized for 5 minutes.

STATEMENT OF ARNE DUNCAN, CEA-OFFICE OF THE CEO, CHICAGO PUBLIC 
                            SCHOOLS

    Mr. Duncan. Thank you so much. Before I begin, I just want 
to thank you, Chairwoman Biggert, and Congressman Davis, for 
your tremendous personal support of our work here in Chicago. 
It means a lot to me. I also want to thank the staff members 
here who have been doing real hard work every day, and they 
have done a fantastic job.
    I want to apologize ahead of time. I am going to have to 
sneak out a few minutes early before this hearing is done. I 
apologize for that.
    I am very pleased to be able to report that the Chicago 
Public Schools have never been in better shape, and we had a 
breakthrough year academically this year with 97 percent of 
elementary schools showing improvement. Two-thirds of our 
students now are meeting or exceeding state standards in math. 
We have almost doubled the number of students meeting standards 
over the past 5 years, elementary down from about 40 percent to 
60 percent.
    In terms of high school performance on the ACTs over the 
past 5 years, here in Chicago we have improved at twice the 
rate of the rest of the state, and three times the rate of the 
rest of the country. So we feel very, very good about that 
progress, but we know we are nowhere near yet where we can be 
and should be and will be, and have to continue to push very, 
very hard.
    We talk about the quality of teaching. That is so 
critically important as we go into the new school year starting 
in 8 days. Four years ago we had about 9,000 applicants to come 
teach in Chicago for about 1,500, 1,600 jobs. That has gone up 
to almost 20,000 applicants. We have doubled the number of 
applicants. And 42 percent of the teachers we hired last year 
had master's degrees, so we are really trying to build for the 
long haul, and not just recruit that great talent but do a 
better job of supporting that talent.
    We have seen some--you know, some fairly significant 
progress, but we know we have a long way to go, and we want to 
continue to try and buildupon that winning streak. At both the 
high school and the elementary level, to Congressman Davis' 
point, we tried to do less testing. We have thrown out tests at 
both the high school and elementary level and have one test 
annually. We are trying to do a much better job on the 
formative assessment side and evaluate students' strengths and 
weaknesses.
    Last year for the first time ever we assessed every child 
in reading, third through eighth grade, three times during the 
year. Turned that data around right away so that teachers and 
parents and principals could use that. I know it is part of the 
reason we saw the significant jumps. This year we are going to 
do every third through eighth grader in math as well.
    We also focus a lot on gains, not so much on absolute test 
scores but how much improvement are individual students and 
schools making at both the high school and elementary level. 
And then, finally, we try and be absolutely transparent with 
our accountability.
    We are publishing a high school score card, and starting 
next year an elementary score card where every school is rated 
on a series of metrics and rated against their own past 
performance. So every school is competing to try and get better 
relative to what they did historically, and we think that 
transparency in getting greater information out to parents will 
help us continue to improve.
    I would like to thank both the state board and Department 
of Education for their collaboration in a couple of critical 
areas for us. We make the very difficult decision each year to 
close a handful of schools for academic failure. This past year 
we opened 22 schools and closed 5.
    We were able to prioritize those students coming out of 
those closed schools under the No Child Left Behind Choice 
Program. It is critically important to try and give students 
who have been poorly served academically great options, and we 
appreciated the flexibility there.
    Second, and this was a huge, huge breakthrough, at the 
start of last school year Secretary Spellings came to Chicago 
and announced that we as a district would be able to continue 
to tutor children after school, and that after-school program 
is hugely important to us. Tutoring is a huge part of our 
overall academic strategy, and we were very, very thankful for 
that opportunity. I am convinced we would not have seen the 
kind of success and results we saw this past year had that not 
happened.
    And then, third, is we are trying to dramatically improve 
the rigor of instruction at the high school level. You have 
given us some flexibility in allowing the high school 
transformation plan to be part of our restructuring efforts, 
and we greatly appreciate that.
    So we are very, very thankful for those efforts, and we are 
very excited about the teacher incentive fund grant and are 
applying to really try and make Chicago a centerpiece for that 
initiative going forward, because we want to continue to get 
the best talent where it is needed most and see it as a huge 
new opportunity.
    Going forward there are a couple of areas we would like to 
continue to improve and work together. We are often trying to 
challenge the status quo and do things a little differently, 
and we want to maintain that flexibility and then hold 
ourselves actively accountable. Secretary Spellings understood 
that we should be able to continue to tutor our students, 
because we have data showing those students that received our 
tutoring were doing much better than students that weren't. And 
so we want to continue to be held accountable for results, but 
also given the opportunity to do the things the right way.
    And second, and this is I am sure a challenge as you go out 
and talk nationally, it is just the resource issue. 
Unfortunately, here in Illinois we have some severe challenges. 
First of all, 85 percent of our students here in Chicago live 
below the poverty line, so we are dealing with students who 
have tremendous needs.
    Unfortunately, Illinois is 49th out of 50 states in the 
amount of money going to K through 12 education. It is a dismal 
funding record. And as we continue to try and improve and 
continue to hone our academic strategies, we would love the 
resources to help us continue to even accelerate at a faster 
level the rate of change.
    We have tried to keep our administrative expenses to an 
absolute minimum. It is down to 4.2 percent of the overall 
budget. We took $25 million out of Central Office and 
unfortunately laid off hundreds of people and gave everybody a 
pay freeze, so we are really trying to be fiscally accountable 
and responsible. We have had 10 years of balanced budgets. But 
as we have continued to get better, each year we have less and 
less resources to work with, and that has been very tough.
    There are five very quick areas I would like to mention 
that we would love additional support on. First would be full-
day kindergarten. That doesn't exist in this State, and we 
would love additional support. We think it is mind-boggling 
that children don't have access to full-day kindergarten. For 
our system, that would be about $30 million.
    The tutoring program, which has been just a wonderful part 
of No Child Left Behind, again has driven some of our 
improvement. We are the only district in the country that 
consistently has waiting lists, and last year we served only 58 
percent of the students who signed up for tutoring. We served 
43,000 students out of about 75,000. And to serve every child 
would take an additional $47 million. And to me it is 
heartbreaking that children who need help are asking for that 
help, and we are not able to provide it at the level that we 
need to.
    We have been we think much more proactive and aggressive in 
science, and so we are really pushing this after school 
tutoring model in other districts around the country. We would 
love more help there.
    We have tried to put reading specialists in the local 
forming schools, and that is part of the reason we are getting 
so much better, and we would love additional resources to drive 
that. As we continue to restructure schools, additional support 
there would be helpful.
    And then, finally, this is a tough one, is the capital 
issue. We need to continue to build new buildings. The last 2 
years we have received no money from the State for capital 
improvements. And as we continue to try and provide choice and 
provide new options for students, it is difficult to do that 
when you don't have enough available high quality seats. So 
that would be a fifth area that we would love additional 
support.
    I will stop there. Thank you very much.
    [The prepared statement of Mr. Duncan follows:]

  Prepared Statement of Arne Duncan, Chief Executive Office, Chicago 
                             Public Schools

    My name is Arne Duncan and I am the Chief Executive Officer of the 
Chicago Public Schools. I thank you for the opportunity to speak to you 
today about the No Child Left Behind Act. Before I start, I would like 
to thank each of you for your support and leadership. I also want to 
thank you for recognizing the importance of reexamining NCLB to learn 
what works and what could work better.
Breakthrough Results
    Since Mayor Daley took responsibility for the Chicago Public School 
system in 1995, the district has been holding schools accountable for 
improving student performance. CPS has closed under-performing schools, 
dismissed under-performing principals and has sent a clear message that 
schools must make continuous progress.
    After more than a decade of strong leadership and accountability, 
we are on a winning streak. The percentage of students meeting state 
standards has steadily increased. Graduation rates and attendance rates 
are up; dropout rates are down.
    But we will not be content until we reach every child at every 
school. In 2005, our district set ambitious five-year improvement goals 
inspired by the rising expectations of No Child Left Behind. We asked 
ourselves what it would take to get there. The answer is The Power of 
2. To meet these goals, each teacher needs increase the number of his 
or her students meeting state standards by two.
    I am proud to announce that our elementary schools achieved The 
Power of 4! This year, four more students per classroom met state 
standards compared to last year. In reading, 60% of students are 
meeting standards, compared to 39% in 2001. In math, 65% of students 
are meeting standards, compared to 35% in 2001.
    I am also thrilled to announce that our high schools will not be 
left behind. Our high school students reached an all-time high on ACT 
scores. CPS' average ACT scores have increased every year for the last 
four years. The gains of both our elementary and high school students 
have outpaced the rest of students in Illinois. Our success is truly 
remarkable for a school system where over 85% of the students come from 
low-income families. We are closing the achievement gap.
Staying on a Winning Streak
    We are excited about our progress, but we are not satisfied. We 
know we cannot rest until we reach every child at every school. That is 
why we have ambitious plans to match our ambitious goals.
    First, we are continuing to set high expectations. Within the last 
year, CPS created School Scorecards. The scorecards define what matters 
to the district. The scorecards then compare performance to district, 
state and national benchmarks. They are distributed publicly, to 
schools, parents and community members. The scorecards represent an 
unprecedented level of openness about our expectations and our 
progress. Within CPS, we continue to monitor the Power of 2 targets. At 
every level-teachers, principals, administrators-we know what we have 
to achieve.
    Second, CPS is making a huge effort to provide the data needed to 
the people that need it, when they need it. We are implementing 
benchmark assessments in reading and math. These are mid-year tests 
that identify students in need of extra support well in advance of 
statewide tests. We are surveying our students about their school's 
learning environment and giving this information to principals. We are 
building student and employee information systems that will provide 
laser-like support to teachers.
    Third, CPS is providing targeted support and accountability at all 
levels. Our high-performing schools receive autonomy from district 
oversight. Our middle-tier schools receive intensive support from 
curriculum coaches and instructional leaders. Those schools that 
continue to struggle are subject to staff removal or closure.
A Successful Partnership
    CPS and NCLB clearly share the same goals. Over the past five 
years, we have worked to integrate our efforts with the requirements of 
the law. We want CPS policy and NCLB to re-enforce each other. This has 
been hard work for us. But the effort has been largely successful. And 
the success is, in no small part, due to the partnership CPS has had 
with the U.S. Department of Education and the Illinois State Board of 
Education.
    Here are a few examples of this partnership. With Choice, CPS faces 
a huge gap between supply and demand. Tens of thousands of students are 
eligible. Only a few hundred slots are available because our high 
performing schools are already full. CPS worked with ISBE to give 
priority to students in schools CPS closes due to low performance. 
Thus, the displaced students have the opportunity to attend some of the 
best performing schools in the city.
    On Supplemental Education Services, DoE extended CPS a 
``flexibility agreement'' regarding the district's tutoring program. We 
provided DoE research that demonstrated that the CPS program was just 
as effective as the private SES providers and for about one-third of 
the cost. DoE then approved a pilot allowing CPS to continue to provide 
district-sponsored tutoring even though the district is identified as 
``in need of improvement'' under NCLB. As a result, thousands more 
students received tutoring than otherwise would have been possible.
    On Restructuring, ISBE has sent out guidance that significant 
curriculum change can qualify as Restructuring. As part of our High 
School Transformation Initiative, we are rolling out a unified 
curriculum to 15 new high schools each year for the next five years. We 
cannot do this overnight. ISBE's decision gives us the time we need to 
do it right.
Making NCLB Better
    CPS has been innovative in adapting NCLB's school improvement 
framework to re-enforce our efforts. These innovations were possible 
because DoE and ISBE demonstrated real flexibility. Congress should 
maintain NCLB's framework of high expectations and accountability. But 
it should also amend the law to give schools, districts and states the 
maximum amount flexibility possible-particularly districts like ours 
with a strong track record of academic achievement and tough 
accountability.
    Chicago Public Schools has made progress despite significant 
financial challenges. We compete with much wealthier suburbs for the 
best and brightest teachers. Because we have a large number of poor and 
special needs children, our per-pupil educational costs are high. We 
inherited schools that were falling apart after decades of neglect.
    The citizens of the City of Chicago have made huge sacrifices to 
help move CPS towards its goal of being the best urban school district 
in the nation. Their property taxes have increased to the Illinois 
legal limit nearly every year to keep our schools competitive. Chicago 
taxpayers are supporting a $4 billion capital program to rebuild our 
schools.
    The Chicago taxpayers understand that they will continue to 
shoulder much of the burden needed to maintain our winning streak. 
Among states, Illinois ranks 49th in the proportion of total 
educational costs it covers. The No Child Left Behind Act provided an 
infusion of funds initially, but restricted the uses of the funds.
    This year, the House Appropriations Committee approved flat funding 
for many educational programs. We estimate this will result in an $8 
million decrease in funds for Chicago Public Schools. We are on a 
winning streak. We don't want a lack of financial support from Congress 
to slow us down.
    A few years ago, a small number of health advocates started pushing 
for the budget of the National Institutes of Health to double within 
five years. At first it was a dream. A few in Congress began to 
recognize the extraordinary opportunities that were within reach due to 
medical advances. Curing cancer. Preventing blindness. Eradicating 
AIDS. Then it was a long-shot. The effort picked up steam as more and 
more people realized how previous investments had paid off. Then it was 
a fight. One-by-one, people joined the cause. Until it happened. 
Congress doubled the funding for medical research in five years.
    Funding education is simply the best long-term investment Congress 
can make. Money invested now will pay us back for decades. So today I 
am going to challenge Congress to show the same confidence it showed 
for medical research. My challenge is this: double the funding for NCLB 
within five years. Here is what you will get in return: presidents and 
pilots, doctors and diplomats, electricians and engineers. You will get 
the next generation of citizens ready to survive and thrive in the 21st 
Century.
    Thank you for the opportunity to testify. I am happy to answer any 
questions you may have.
                                 ______
                                 
    Mrs. Biggert. Thank you very much. And if we don't have the 
opportunity for questions, if you have to leave, I just want to 
congratulate you and Mayor Daley for all that you have done. 
And I know he has been such a supporter of education, but the 
things that we hear all the time, you have really done a great 
job. Thank you.
    Dr. Ruscitti, you are recognized for 5 minutes.

       STATEMENT OF DARLENE J. RUSCITTI, ED.D., REGIONAL 
      SUPERINTENDENT, DUPAGE REGIONAL OFFICE OF EDUCATION

    Ms. Ruscitti. Good morning. Thank you for the opportunity 
to be here. I work for the DuPage County Regional Office of 
Education. It is the second largest county in the State of 
Illinois. We have approximately 164,000 students and 12,000 
educators that my office helps to serve. Our office has two 
major responsibilities, one in the way of regulatory and 
compliance; the other is in the way of service and support. 
Sometimes it sounds like an oxymoron there, but it really does 
work in many respects.
    Our school demographics in DuPage continue to grow. We are 
looking at tremendous changes in our populations. We have 70 
percent of our population right now as white, we have 6 percent 
as black, we have 10 percent as Asian, and 14 percent as 
Hispanic. We are the fastest growing--DuPage County has the 
fastest growing Hispanic population in the State of Illinois.
    What I believe is about to happen with No Child Left Behind 
and in future, you know, tweaking of it, changes in it, I think 
is monumental for the future of not only our schools, our 
educators, but most importantly our children and also our 
nation.
    The comments that I want to make, I want to set some 
context for them first of all. I have been with this regional 
office for about 15 years in DuPage County, and I would say 
that we have seen a lot of things come and go. We have seen 
fads come and go. We have seen, you know, jumping on the 
bandwagon with one thing or another. We have seen some good 
legislation at the State level, too, come and go, you know, as 
well.
    We have also seen some great presenters come in and, you 
know, they fly in, you know, spend a couple of days, and 
consultants and work with our schools, and then they fly out. 
And boy, you know what, that was just really great, all these 
things that, you know, we have done.
    But the bottom line I really do believe is that there is 
not a magic bullet. You know, we have sat around, and we have--
you know, we have been wringing our hands and saying, ``What is 
it that we are to do? You know, legislation here doesn't work 
for us. This doesn't work for us. What are we here to do?''
    So I would just like to say that one of the most important 
things that I believe that No Child Left Behind has done, it 
has said to educators, it has sent a message, and I can say 
this for DuPage County educators, it sent a message to us that 
said, ``Yes, you are the educators, you are the experts in the 
field, so figure it out, what needs to happen with No Child 
Left Behind. Figure out how this can work for all kids.''
    So I think that there the gauntlet has been laid down for 
educators, and we are--and I think we have risen to the 
occasion. You know, there is a challenge there before us, and 
this is our belief system, that every child can meet or exceed 
state standards. So I have been asked, you know, what have I 
seen in DuPage County that has--you know, what has been going 
on in DuPage.
    You know, again, I am going to go back very quickly to our 
demographics. It is very typical today to have a classroom of 
25 to 30 students each child being unique. I don't even know 
when we talk about regular children anymore what a regular 
child is in the classroom, because we really do try to meet the 
individual needs of each of our children. But it is very likely 
in a classroom of 25 to 30, you know, to have four behavioral 
disorder children, you know, to have, you know, several 
learning disabled children, to have children, four or five 
children that, you know, are English second language learners. 
So there is gifted children in our classrooms. So there is 
great diversity within our classroom.
    Thus, that is really our challenge, one of our greatest 
challenges. How do you meet the needs of all of these children? 
But I do, again, believe that No Child Left Behind has put a 
spark, has lit, you know, somewhat of a fire under educators, 
because we are very competitive, and we want to make sure that 
every child is meeting or exceeding state standards.
    We had said for a while in DuPage County previously to No 
Child Left Behind, ``Aren't we good?'' Eighty-five percent, 90 
percent of the students in our school are meeting or exceeding 
state standards. But the reality is one of the things NCLB has 
required us to do is look at all kids, and that to me is one of 
the most important things that it has done. We dig down and 
drill down deep with our data, and we look at all children. And 
so I think that has been extremely powerful.
    Another very important piece I believe has been very 
powerful is because of No Child Left Behind and our figuring it 
out. And, you know, it has been the working with each other. It 
is creating the kinds of learning environments and learning 
communities in DuPage County where we are learning from each 
other, where we are--and this is one of the first times that I 
have seen it in the 15 years.
    You know, we are kind of very territorial, we protect our 
district, we protect our area. You know, we are good, we don't 
want to share sometimes with other districts, because you know 
what, they may look better than us on those scores. But you 
know what? What this has done, I believe, whether it is a 
natural progression of our profession or NCLB, but it has 
really said very loud and clear, you know what? We are going to 
learn from each other. There is best practices everywhere.
    And how do we pull those best practices in? How do we learn 
from each other? You know, where I see a teacher, you know, may 
not have the best score in a geometry concept on the--you know, 
on our state assessment, and they will run over to the 
classroom next to them and say, ``You did, what did you do?'' 
that is the kind of a learning environment that I think that we 
are moving toward. And I think it has been very encouraging.
    I do want to bring up that in DuPage County, in 
collaboration with the 42 school districts in DuPage County, we 
have come up with what we call the DuPage I Initiative. And the 
DuPage I Initiative has two connotations. One of the 
connotations is, one, we are united as one to work together on 
behalf of all of our children, to learn from and to learn with. 
The second connotation is--and this comes from our belief 
system--we believe that DuPage County will be the first county 
in the country that every child will meet or exceed state 
standards.
    So we are working on twofolds--one, you know, what we need 
to have happen, but also on our belief system. And I think that 
that is huge to--you know, to again get at the heart of what it 
is that we are trying to do.
    Just very quickly, some of the things--and this is in my 
conversations with many educators and administrators in DuPage 
County, some of the things that we have seen work. And, again, 
it is looking at data, getting everyone to understand what the 
data means. And that includes parents, that includes children, 
to take a look at their data and how can they improve their 
scores, how can they improve and get better at what they do.
    This is not just the schools doing this, but they are 
sharing that with, you know, their community and also with 
their parents and also with their children. So the 
understanding of data has been huge.
    Another area is still realignment, that classroom alignment 
with our state standards, with best practices of instruction, 
and not just alignment with the state assessment but really 
looking at formative assessment, looking at best practices in 
formative assessment, so by the time that state assessment 
comes in March and April, you know what, we have had some 
practices at this as well, too, and feedback and monitoring, 
etcetera, etcetera, and adjustment on instructions, too, so 
that we can get better and better at what I do.
    And there was another component to this DuPage one, many 
components to it, but another one I want to highlight. We call 
them our walkthroughs. It is visiting and having teachers visit 
classrooms and looking in each of those classrooms and being 
set up against some criteria that shows what good instruction, 
you know, looks like.
    One other very important area is in the area of 
professional development. You can talk to any school in DuPage 
County that their scores are improving, they will say they put 
the time and the effort into their professional development.
    The down side of it is is the funding for professional 
development. It is just not there, so teachers are having to 
try to find each other wherever they can, running from 
classroom to classroom, to try to see what did you do to 
improve, as opposed to some formalized very kind of best 
practice type of process, you know, to engage each other in.
    And I just wanted to share a couple of other, just in 
conclusion, too, so I have seen lots of good things happen. And 
I do not believe that there is an educator or an administrator 
in DuPage County that would not agree with that. But there 
still are some issues, and I do believe we still need a 
better--we still need to better market No Child Left Behind. 
Our parents still don't understand. As sophisticated as some of 
them are, they still don't understand what NCLB is all about.
    I think our media has a little bit to do with that, 
because, you know, we still see schools labeled, you know, as 
failing schools if they are not meeting adequate yearly 
progress. And that just itself, you know, I think sets up, you 
know, some definite shockwaves amongst, you know, for our 
schools.
    Another thing, this is, I think we also need to look at No 
Child Left Behind in a broader context, not in isolation of, 
but in collaboration with the other great things that schools 
do. There is a lot of things schools do that I think our 
communities are very proud of, but they never get mentioned. 
The work that happens in civic education, character education. 
If we can find a way to work with our states, and have report 
cards that are reflective of both academic and demographics, 
but also reflect some local flexibility and what is really 
working that is at the heart in other areas as well, too. For 
example, service learning again, too.
    If we can be more inclusive in the way we do our report 
cards, and showcase to our communities, yes, we are very much 
about academic, we are very much about, you know, lots of other 
types of things, but, and here are some things that are really 
important to our community. So it has some local flexibility as 
far as it comes to our school report card, and really measuring 
what matters within our communities.
    I already mentioned the professional development. We really 
do need--we need to really move from a focus on testing to a 
focus on learning and putting some dollars there as well, and 
then also, too, if we could just showcase in the future 
progress that we are making on our student assessments as 
opposed to just you have got to be here at this time at this 
place, you know, in time, and just show some progress.
    Thank you.
    [The prepared statement of Ms. Ruscitti follows:]

  Prepared Statement of Darlene Ruscitti, Regional Superintendent of 
                           Schools of DuPage

    Thank you for allowing me the opportunity to be here today. I know 
that there is much discussion in DuPage County regarding the 
reauthorization of NCLB and I believe this will be one of the most 
important education issues facing our nation. What follows next will 
matter tremendously to our schools, our teachers and, most importantly, 
our children and our nation.
    While there are groups out there that hope NCLB will go away 
entirely, others want it greatly altered, more factions want it 
massaged and made more flexible, and still others believe it should be 
strengthened. Through a recent strategic planning process that DuPage 
County Government engaged in with the community, it was noted that one 
of the greatest assets the county has is its education system. However, 
there remains a concern that our children will not all be prepared to 
compete in a global society, and that higher standards need to be in 
place. With this said, I still am not sure that there will ever be 
enough evidence on one side or the other to fully convince our 
legislators to abandon or enhance NCLB.
    During my fifteen years with the Regional Office of Education in 
DuPage County, I have seen education fads come and go; I have seen well 
intended statewide legislation on education issues appear and 
disappear, and I have seen expensive and influential consultants drift 
into town and float away into obscurity the next day. As a result, 
educators have become disenchanted, frustrated, and willing to retreat 
to a place where we feel safe--in our classrooms, with the doors shut, 
until the rest of the world figures it out or until the magic bullet is 
found.
    However, part of the problem in education is that there is no magic 
bullet. There is no template that says here is how it should be done. 
There is no quick fix. We also spend far too much time voicing our 
concerns rather than being proactive and creating our solutions. From 
time to time, we sit around and ring our hands and say ``no one 
respects or understands us'' no one knows what we do'', ``with so many 
mandates how can we teach?'' ``first, the state is telling us what to 
do, and now the federal government is telling us what to do. What are 
we to do?''
    We have also seen tremendous changes in our society that impact the 
classroom and are oftentimes ignored by our communities and decision 
makers. It is very possible today for a teacher in DuPage to have 25-30 
children (all gifted, of course) with 4 being identified as gifted, 4 
learning disabled students, 4 English Language Learners, 1 identified 
homeless student, 2 behavior disorder students, 3 students of a working 
single parent, 2 students identified as ``low income'' and a few other 
``regular'' students, each with their own uniqueness. Issues of 
mobility, truancy, drugs, crimes, mental health problems, etc. continue 
to increase and impact our classrooms. This has not always been the 
reality in DuPage, but it is today.
    Again, there is no magic bullet! Sitting around complaining serves 
no purpose, and the children we have in our classrooms are the children 
we have in our classrooms. We can't exchange or return them, nor would 
we want to. Here is what I believe NCLB has done for DuPage County: it 
has pushed us to the next level and told us to ``figure it out'', ``you 
are the experts--you told us that you are--and we believe you; now go 
forth and show us what you can do.'' To a certain degree, it has 
empowered and challenged us.
    As educators, we are rising to the occasion. We are figuring it 
out! We have been figuring it out for some time; and NCLB simply pushed 
us into doing it a little quicker, and for all students. Educators from 
all disciplines, content and grade levels are talking to each other 
about instruction. Bilingual education and special education educators 
are talking. Behavior disorder teachers are getting involved in 
curriculum. I would venture to say everyone is talking about teaching 
and learning, together.
    DuPage County, itself, has extremely high standards. The demands on 
our schools, teachers, students, and administrators to produce are 
unbelievable. We would never intentionally leave a child behind. It is 
the very essence of the work that we do. However, we did leave children 
behind. We have, in some cases, 90% of our student population meeting 
or exceeding state standards. We are good! Nevertheless, if you were a 
student in the 10% bracket that wasn't meeting standards, you were left 
behind. NCLB forced us to look at all of these students. We are good, 
but not great!
    So, what have we been doing? The Regional Office of Education is 
facilitating an initiative called DuPage1. It is a collaborative 
partnership between the Regional Office of Education, other 
professional organizations, and the schools in DuPage County. The title 
of the initiative has a dual meaning. The first is that we are united 
as 1 to learn with and from each other. It is pulling together best 
practices from around the county, state, and country. It is the concept 
of the learning community where teachers learn from each other in a 
professional and collegial manner, talking about their profession, 
their students, and their students' work. DuPage1 reinforces attention 
where attention should be: on instruction and learning.
    The second meaning of the initiative is that we strive to be the 
first county in the nation, by 2014, to have every child meet or exceed 
state standards. NCLB has also required us to re-examine our belief 
system, and the students came out on top!
    There are major components to the DuPage1 Initiative which include:
    One major component is in revisiting the Illinois Learning 
Standards through a Regional Office of Education statewide initiative 
called the Standards Aligned Classroom (SAC) Project. ROE-trained 
facilitators and coaches work with school teams, studying and 
implementing the best practices of a standards-led classroom. SAC 
training and support helps teachers determine clear and appropriate 
learning targets based upon the state educational standards. 
Participants learn from each other through observations, action 
research, questions, experiences, and best practices. Most importantly, 
it teaches teachers how to use assessment for learning through 
continuous feedback. It also requires students to be involved in the 
assessment process.
    The second component, and in my opinion one of the most important, 
is the facilitation of Data Retreats in schools: learning how to 
analyze data and use for improvement purposes. A most critical step in 
looking at all students' progress is examining the local data in a 
variety of areas that include academic, programmatic, demographic, and 
perception data in order to develop future goals and action plans. Data 
does not just end up in the hands of the teachers and the principals. 
Students are taught to track their own data, set goals for improvement, 
and take action steps. We have seen students come in at 7:30 a.m. for 
tutoring on their own to improve their scores. They understand why it 
is important and are taught to be facilitators of their own learning. 
Parents are also being taught to work with their children's data and 
are provided with tools and resources to assist their child at home.
    Another major component of the DuPage1 Initiative is Focused Walks. 
This process assists educators in developing the skills to observe 
instruction and create mathematical and literacy profiles of school-
wide instructional practices. It teaches educators how to use the 
profiles to engage faculty in discussions about instructional change 
and school-wide instructional goals.
    The fourth major component is more of a best practice and places 
the emphasis on professional development. We know quality professional 
development for teachers and administrators has to be on-site and 
inclusive. The professional development most frequently requested is in 
the area of interventions. In addition to classroom interventions and 
strategies, tutoring, before and after school programs, early 
intervention, and response to intervention techniques are all proving 
valuable.
    If you were to ask any curriculum leader or principal in DuPage 
what they see as the most important factors of why their scores 
increased (and scores in DuPage have improved; however, data is not 
available at this time), they would say it is a result of implementing 
the above strategies.
    NCLB, from my perspective, challenged educators to raise the bar, 
to move from being good schools towards being great schools. We can 
meet this challenge by creating long overdue learning environments that 
encourage intensive ongoing professional experiences to build content 
knowledge and use of research based instructional strategies.
    NCLB is a road map for school improvement. U.S. Congresswoman Judy 
Biggert has been most cordial in listening to numerous groups of 
educators and others on this topic. A number of DuPage County Educators 
have also met several times with Senators Durbin and Obama, as well as 
Congressman Hastert and Biggert, most recently in March, 2006. Included 
is a copy of the notes from that visit.
    Many of our concerns with NCLB could be better addressed if there 
was an improved marketing strategy for the public. The public simply 
does not know what most of it means and, in some cases, does not care. 
The media tries to explain but they label schools as failing if they do 
not make Adequate Yearly Progress. In addition, great emphasis is 
placed on one assessment. The focus, as a result is on failure and not 
the emphasis on best practices in teaching and learning and continuous 
improvement.
    Schools are so much more than just being about standardized tests. 
They are about the teachers that pull their resources together and buy 
used furniture and appliances for the needy family in town. Schools are 
about working together to develop assessment instruments for measuring 
the physical fitness of their children so they can better meet their 
health needs. Schools are about teachers volunteering their time at 
their community resource centers, tutoring students after hours. 
Schools are about meeting the social and emotional well-being of their 
students that no one instrument can ever measure. To be judged on our 
value and quality by our communities on a sole instrument is really not 
fair. As a result, the sanctions placed on schools not meeting AYP are 
demoralizing and detrimental to what we are trying to accomplish.
    I am proposing to our state legislators that we re-think our school 
report card. I suggest one-third of the report card be available to 
school districts to include value-added services in their schools for 
the children in their communities. Things like service learning, civic 
engagement, and fitness could be included depending on the school's 
focus and energies. Let's have a school report card that reflects our 
academic progress, customer satisfaction, and our community's return on 
their investment. Until we have a fair and adequate measurement system 
that reflects the complexities of the realities of teaching and 
learning, we are at the mercy of the media and those that believe 
public education is doomed to failure.
    In conclusion, to date NCLB has certainly done more good than harm. 
It has propelled educators to create environments that support a 
community of learners, for all learners. We still must resolve to do 
better, not because of any federal legislation but because we owe our 
best efforts to instill within each other the traits of our knowledge 
and skills and character that allow us to lift up every child that 
enters our doors.
                                 ______
                                 
    Mrs. Biggert. Thank you.
    Dr. Kimmelman, you are recognized.

STATEMENT OF PAUL KIMMELMAN, SENIOR ADVISOR, OFFICE OF THE CEO, 
                   LEARNING POINT ASSOCIATES

    Mr. Kimmelman. Good morning. Thank you for inviting me to 
appear here today on behalf of Learning Point Associates. 
Learning Point Associates has Federal contracts to operate the 
Great Lakes East and West Comprehensive Assistance Centers, the 
National Comprehensive Center for Teacher Quality, and the 
Regional Education Laboratory Midwest. All are guided by the 
mission of assisting with the implementation of the No Child 
Left Behind Act.
    I have also had the opportunity to work as an adjunct 
instructor at Argosy University that has campuses across the 
United States, and by teaching online have found that students 
with a national perspective on NCLB have become more supportive 
of it when they gain greater knowledge about the fundamental 
principles.
    I would also like to offer a special acknowledgement to 
Congresswoman Biggert for her encouragement for Learning Point 
Associates to establish an NCLB implementation center. That 
center has been piloting work with school districts and 
assisting them with using data-driven decisionmaking to improve 
student achievement, planning research-based professional 
development to improve the quality of teaching and helping them 
comply with the highly qualified teacher provisions of NCLB, 
and also the opportunity of working with Brian, and the 
Committee, with Amanda.
    Representative Davis, I have had the honor of working with 
Jill Hunter Williams, your senior legislative staff member, and 
am well aware of the education task force work you have been 
doing. And, Representative Scott, I have had the opportunity to 
meet in your office last year with your staff to discuss the 
education work in Virginia.
    Today I would like to briefly focus on six points that are 
informative for this hearing. More detail regarding those 
points can be found in my written testimony.
    First, Congress should stay the course on its policy to 
transform American schools and ensure a quality education for 
every child. You have begun the long-term process of improving 
American education through a bold, bipartisan policy initiative 
that was needed to bring the type of accountability you are 
seeking for schools. Since the Soviet Union launched the first 
space satellite in 1957, and Congress said our country was 
falling behind because of our education system, there have been 
numerous recommended education reform initiative with very 
limited success.
    Clearly, America's schools must move from their traditional 
industrial model to one that evolves consistently and is 
adaptable to new education research and programs that are 
proven to work. Without Congress raising the stakes for schools 
to concentrate on improvement through NCLB, much of the good 
reform work going on in schools today would not be as 
prevalent. While unfortunate, it is difficult to reform a 
system without consequences.
    Second, there will continue to be a significant need for 
more education, research, and development to provide the 
knowledge and support state education agencies and local school 
districts require to effectively meet the needs of education of 
America's students. Congress and the U.S. Department of 
Education are to be commended for the new plan for research 
through the Institute of Education Sciences and technical 
assistance through the comprehensive assistance centers.
    Rather than make major changes to the law, be patient and 
make small changes based on logical evidence-based 
recommendations. Some of the needed changes that Congress 
should address are the adequate yearly progress requirement. 
For example, depending on the timing of the reauthorization, 
there could be a significantly large percentage of schools not 
making AYP that are for the most part good and effective 
schools. The reason for this phenomenon is the larger 
percentage increases under AYP in the states coming in the 
later years of the 12-year goal for 100 percent proficiency.
    If the requirements and sanctions are not modified and the 
reauthorization is delayed beyond 2007, it is possible that a 
large number of schools will fall under the more punitive 
sanctions in communities that will actively oppose them rather 
than focusing on the needs of the students who were intended to 
be protected by NCLB.
    Fourth, the highly qualified teacher provisions under NCLB 
are creating more substantive discussion regarding what really 
constitutes a highly effective teacher. During reauthorization, 
it may be that evidence-based recommendations will emerge and 
contribute to even better provisions to determine not only who 
is highly qualified but what might be effective teaching as 
well.
    Fifth, to take the domestic NCLB policy to a more global 
concept, Congress should consider connecting the dots to ensure 
that U.S. education is about preparing students for the 21st 
century global competitiveness that it has discussed this year. 
The traditional school model of today is in need of visionary 
thinking that makes use of technology and research in new and 
different ways.
    Sixth, it would be my suggestion that Congress now focus on 
the big policy picture and delegate more responsibility to the 
Secretary of Education to make more specific detailed decisions 
with respect to implementation, and, when appropriate, to tweak 
the rules and regulations to ensure a smoother implementation 
of the law.
    As you begin the next reauthorization, it would be 
meaningful to incorporate the concept of knowledge-based 
solutions in conjunction with the work of the Institute of 
Education Sciences and other organizations working on credible 
research and development that will help educators be more 
successful in implementing the accountability provisions of 
NCLB.
    Thank you.
    [The prepared statement of Mr. Kimmelman follows:]

  Prepared Statement of Paul Kimmelman, Senior Advisor, Office of the 
                     CEO, Learning Point Associates

    Good morning, members of the committee, and thank you for inviting 
me to appear here today on behalf of Learning Point Associates, a 
nonprofit educational organization. Learning Point Associates has 
federal contracts to operate the Great Lakes East and Great Lakes West 
Comprehensive Assistance Centers, the National Comprehensive Center for 
Teacher Quality, and REL Midwest. All are guided by the mission of 
assisting with the implementation of the No Child Left Behind Act and, 
ultimately, to work in partnership with educators to ensure successful 
high-quality education opportunities for all students regardless of 
ethnicity, disability, socioeconomic status, or where they happen to 
attend school.
    I would like to offer a special acknowledgement to Congresswoman 
Judy Biggert for her encouragement for Learning Point Associates to 
establish an NCLB Implementation Center. That Center has been piloting 
work with several Illinois school districts as well as districts in 
Wisconsin and Indiana. We are assisting those districts with using 
data-driven decision making to improve student achievement, planning 
research-based professional development to improve the quality of 
teaching, and complying with the highly qualified teacher provisions of 
NCLB. We also are working within the policy framework of NCLB to offer 
informed consultation to those districts so they can make 
recommendations to Congress when the Act is reauthorized.
    I have been asked to discuss today the elements of NCLB, 
particularly in Illinois, that are working and the areas that may need 
to be improved. It would be safe to conclude that the NCLB challenges 
confronting Illinois schools are similar to those in other states. 
Therefore, most of my comments will be more general in nature unless I 
specifically refer to an initiative in Illinois.
    First, I have had the good fortune to work in an organization that 
is committed to helping educators use evidence-based solutions to raise 
the achievement of their students. I also work as an adjunct instructor 
at Argosy University, a nontraditional for-profit university with 
campuses across the United States. Because some of Argosy's classes are 
taught online, these education students can share a national 
perspective on NCLB issues. I have found that when these students 
reflect on the law and gain a greater understanding of its provisions, 
they tend to be more supportive of it. Finally, as an organizational 
member of NEKIA, the National Education Knowledge Industry Association, 
I am working with colleagues from a variety of organizations who are 
pursuing knowledge-based solutions to education issues.
    Rather than attempt to ``broad brush'' the entire law today, I will 
focus on a few points that I believe are informative for this hearing. 
More detail regarding these points can be found in my written 
testimony. Those points are as follows:
    1. Congress should ``stay the course'' on its policy process to 
transform American schools and ensure a quality education for every 
child. Although NCLB has its critics, you have begun the long-term 
process of improving American education through a bold, bipartisan 
policy initiative that was needed to bring the type of accountability 
changes you were seeking in schools. The fact that 381 Representatives 
voted for NCLB indicates that it was an important national issue in the 
House.
    2. Although you have often heard the request for more funding, what 
you are seeking from NCLB will require a greater investment in research 
and development to provide the knowledge and support state education 
agencies and local school districts will need to truly meet the 
educational needs of the highly diverse learning requirements of 
America's students. Congress and the U.S. Department of Education are 
to be commended for the new plan for research through the Institute of 
Education Sciences and technical assistance through the Comprehensive 
Assistance Centers. The structure for implementation may take some 
time, but it is fundamentally sound. The real issue is whether there 
will be enough funding to support creating new scientific knowledge 
about education and moving it to the field.
    3. As you prepare to reauthorize NCLB, keep in mind that systemic 
change of this type takes time. Rather than make major changes to the 
law, be patient and make small changes based on logical, evidence-based 
recommendations. You have come too far in the process--and states and 
schools have started to make the required changes needed to comply with 
the law--to radically change NCLB and expect everyone to start over 
again. Some of the needed changes should address the adequate yearly 
progress formula and how it is calculated for students to be 
successful, the provisions for a highly qualified teacher, the 
sanctions concept to make it more practical and definitive, and 
``connecting the dots'' to ensure that U.S. education is about 
preparing students for the 21st century global competitiveness that 
Congress has discussed this year. The traditional school model of today 
is in need of substantive, visionary thinking that makes use of 
technology and research in new and different ways.
    I would like to begin by saying perhaps the most important point to 
emphasize regarding the implementation of NCLB--not only in Illinois 
but across the nation--is that Congress in a significant bipartisan 
cooperation raised the stakes for schools to improve when it first 
passed NCLB. In a book I wrote on NCLB that was released at a Capitol 
Hill reception this year, I noted that since the Soviet Union launched 
the first space satellite in 1957 and Congress said our country was 
``falling behind'' because of our education system, there have been 
numerous recommended education reform initiatives with very limited 
success. Many of those recommended reforms were correct in their call 
for states to implement rigorous academic standards and valid 
assessments to determine if students were meeting them. States also 
have been called on to eliminate achievements gaps and ensure that 
students from all demographic groups are successful in school as well 
as to help America's teachers be well trained and qualified to meet the 
needs of 21st century students. It isn't a coincidence that those 
reform recommendations finally found their way into a federal law that 
ensured a serious commitment to the reforms by those who are recipients 
of federal funding. Clearly, America's schools must move from their 
traditional industrial model to one that evolves consistently and is 
adaptable to new education research and programs that are proven to 
work. Without Congress raising the stakes for schools to concentrate on 
improvement through NCLB, much of the good reform work going on in 
schools today would not be as prevalent. While unfortunate, it is 
difficult--if not impossible--to reform a system without consequences. 
It took the vision of a bipartisan Congress to initiate the reform 
process, and it is that vision that will help make future adjustments 
to the law to make it more effective based on the evidence and 
professional wisdom of those who propose changes during the 
reauthorization process.
    With nearly 15,000 public school districts in the United States and 
approximately 900 in Illinois, it would be more speculation than fact 
to state exactly how the implementation of NCLB is going. However, 
there is no doubt regarding the work that schools must do--and in most 
instances, are doing--to successfully meet NCLB provisions and comply 
with the fundamental underpinnings contained within it.
    There is a much greater emphasis by educators on using appropriate 
data to inform decision making for monitoring the academic progress of 
students. There is more recognition of the need for ensuring that 
qualified teachers are teaching core subjects and that they are better 
distributed throughout all schools and districts. Although the process 
is not moving as rapidly as hoped, there is evidence across the nation 
that progress is being made on these two critically important tasks. 
That is the plus side of the coin. Congress got it right when it 
illuminated these two critical responsibilities as undeniable 
requirements for high-quality schools.
    I also think it is appropriate here to weave in what could be 
improved. It is likely that when Congress reauthorizes the law, it will 
be presented with a number of new ideas or concepts to determine the 
adequate yearly progress of students. There is considerable discussion 
regarding value-added assessments and not relying on one test to 
determine AYP. That discussion should be recognized as a positive 
result of the NCLB implementation process. Listening to witnesses offer 
evidence-based ideas on how to monitor the progress of students using 
data in different ways only means that the education profession is 
maturing and improvement should be ongoing.
    The teacher qualifications provision under NCLB is creating more 
substantive debate regarding what really constitutes a highly effective 
teacher. The starting point for the debate was NCLB and the key 
provisions for a highly qualified teacher: a bachelor's degree, full 
state certification, and subject-matter competency. During 
reauthorization, it may be that other evidence-based suggestions will 
emerge and contribute to even better provisions to determine not only 
who is highly qualified but what might be effective teaching as well. 
Regardless, there is clearly more discussion needed on how to improve 
the preparation of teachers, their ongoing professional development, 
and alternative pathways for those who want to become teachers. I had 
an opportunity to meet with U.S. Representative George Miller on this 
topic, and his passion for helping teachers be more effective is 
sincere and legitimate.
    By working diligently with some pilot districts, the NCLB 
Implementation Center at Learning Point Associates has learned in real 
time and real situations how difficult it is to implement research-
based professional development. Our pilot school districts, while 
geographically located in a relatively small Midwestern area, have 
demonstrated to us the importance of being able to customize our work 
to meet their unique needs.
    So, as far as data and highly qualified teachers are concerned, I 
see the glass as half full. Congress was correct in finally ensuring 
that the Elementary and Secondary Education Act was going to be 
implemented with integrity and accountability. It would be my 
suggestion that Congress now focus on the ``big policy picture'' and 
delegate more responsibility to the Secretary of Education to make more 
specific detail decisions with respect to implementation, and when 
appropriate, to ``tweak'' the rules and regulations to ensure a 
smoother implementation of the law.
    For example, depending on the timing of the reauthorization, there 
could be a significantly large percentage of schools not making AYP 
that are for the most part good and effective schools. The reason for 
this phenomenon is the larger percentage increases under AYP in the 
states coming in the later years of the 12-year goal for 100 percent 
proficiency. If the requirements and sanctions are not modified and the 
reauthorization is delayed beyond 2007, it is possible that a large 
number of schools will fall under the more punitive sanctions in 
communities that will actively oppose them. This will result in those 
communities debating the law and not focusing on the needs of the 
students who were intended to be protected by it.
    From a policy perspective, the Legislative Education Network of 
Dupage County--a group in Representative Biggert's Illinois district--
has worked diligently to support NCLB and to propose changes to it 
based on evidence and the group's experiences in trying to implement 
it. This isn't a group trying to avoid its responsibility to all 
students.
    In Illinois Congressman Mark Kirk's 10th District, the education 
advisory board recommended technical corrections to the law that are 
consistent with most of the recommendations being made around the 
country by education groups. Those recommendations include reviewing 
the ``broad-brush'' sanction provisions for schools that are making 
progress but perhaps not making AYP for a small subgroup, extending the 
time to meet the highly qualified teacher provisions for hard-to-staff 
subjects, and reviewing how many times one student can count in a 
subgroup.
    In Chicago, School CEO Arne Duncan is pursing a number of reform 
concepts that will potentially result in continuous improvement in one 
of our nation's largest school districts. Mr. Duncan has offered 
visionary leadership to meet the goals of NCLB.
    In the book on NCLB that I wrote, I suggested that it was more 
important to focus on building the organizational capacity in schools 
using a knowledge model than simply focusing on meeting the specific 
provisions of the law. My thinking is that school leaders need to 
emphasize systemic school improvement that is going to lead to improved 
student achievement, a better learning environment that motivates 
students to learn and remain in school, more sophisticated data systems 
to inform their work, and professional development for teachers that 
will help them be more effective. That means using knowledge 
acquisition, management, and implementation.
    There have been a number of major U.S. companies that were faced 
with the possibility of going out of business, but they found a way to 
transform their work and compete in a global environment. Congress has 
set the stage for schools to improve and NCLB has begun to change the 
culture in education to focusing on improved achievement for all 
students. The light at the end of the tunnel is still distant, but it 
is getting brighter. By holding schools accountable and making 
reasonable modifications to NCLB during the reauthorization, by the 
year 2012 the United States may not have achieved the intended goals 
but will likely have made substantial progress toward them. It will 
take patience and I applaud you for your vision and leadership to 
ensure that all students in this country have an opportunity to compete 
in a global environment by ensuring they receive a high-quality 
education.
    Let me conclude by saying that the last few reauthorizations of the 
Elementary and Secondary Education Act have been an evolution from 
standards to accountability. That process has consumed more than 10 
years. As you begin the next reauthorization, it would be meaningful to 
incorporate the concept of using knowledge-based solutions in 
conjunction with the work of the Institute of Education Sciences and 
other organizations working on credible research and development that 
will help educators be more successful implementing the accountability 
provisions of the law. What is most important is that you remain 
patient but stay the course.
    Thank you for the opportunity to be here today. Your commitment to 
education is important and your interest in knowing about the progress 
of NCLB is apparent through your willingness to schedule these 
hearings.
                                 ______
                                 
    Mrs. Biggert. Thank you, Doctor.
    Ms. Piche, you are recognized for 5 minutes.

   STATEMENT OF DIANNE PICHE, EXECUTIVE DIRECTOR, CITIZENS' 
                   COMMISSION ON CIVIL RIGHTS

    Ms. Piche. Good morning to Congresswoman Biggert, 
Congressman Davis, and Congressman Scott. And thank you very 
much for this opportunity to testify today on implementation of 
No Child Left Behind. And also, I would like to take this 
opportunity to thank each of you members of the Committee 
personally for all you have done and your contributions to 
educational equity and to closing achievement gaps in your 
communities and across the country.
    In passing No Child Left Behind, a bipartisan Congressional 
majority made an important and historic commitment to 
fulfilling the promise of Brown v. Board of Education that all 
children, regardless of race, ethnicity, or family 
circumstances, are entitled to equal educational opportunities.
    NCLB is by no means a perfect law, but there is good news. 
As a result of No Child Left Behind, parents, teachers, and 
others now have unprecedented awareness of achievement gaps. 
Schools are paying more attention to all students, including 
historically disadvantaged groups, and not just those who maybe 
it was easiest to teach.
    In many places, teaching and learning are improving. 
Parents have more options. Students who are below grade level 
are getting the extra help they need, and gaps are closing. And 
this is the good news, and it should be celebrated. We are 
truly making progress.
    The bad news, however, is that with respect to 
implementation we still have a long way to go. And this is true 
especially with respect to what we consider to be the core 
civil rights or equity provisions in No Child Left Behind. 
These provisions include alignment of curriculum and 
instruction in high poverty Title I schools with high state 
standards. In far too many high poverty classrooms, 
expectations continue to be low, instruction is rote and dumbed 
down, and teachers are not using a curriculum matched to state 
standards.
    Numerous parent right-to-know requirements--too many 
parents continue to be in the dark about their child's 
performance, their school's expectations and performance, and 
their child's teacher qualifications.
    Parent rights to transfer out of low performing schools to 
better schools and to obtain free tutoring--we found through 
research we have been conducting over the past several years 
that schools and districts are continuing to put up roadblocks 
to parents' ability to exercise these options under the law, 
and that less than 1 percent of eligible students are able to 
transfer, and only 15 to 16 percent of eligible students 
receive supplemental educational services, notwithstanding the 
real progress here in the city of Chicago with respect to the 
tutoring program.
    Finally, I want to highlight No Child Left Behind's very 
critically important teacher quality provisions. And I would 
like to zero in for the rest of my time today on implementation 
of the teacher quality equity provisions of the law and 
summarize for you a report we released in July, ``Days of 
Reckoning: Our States and the Federal Government up to the 
Challenge of Ensuring a Qualified Teacher for Every Student.''
    It is our Commission's belief that teacher quality is a 
paramount civil rights issue. There is a growing body of 
evidence that tells us that teacher quality is the most 
significant educational variable that influences student 
achievement. Yet low income and minority students are routinely 
assigned less qualified teachers than their more affluent and 
white peers in neighboring schools and districts.
    This includes assignment to poor minority students of 
teachers who have not obtained full state certification, those 
who are teaching out of field, and those who are brand-new to 
the profession, and experienced.
    Earlier this summer colleagues of ours at the Education 
Trust released fresh evidence on the teacher quality gap in 
three states--Illinois, Ohio, and Wisconsin--and made similar 
findings. In this State, the Illinois Education Research 
Council compiled an overall teacher quality index and applied 
it to a large data base of teachers in different types of 
schools, and the results were dramatic.
    The higher the poverty rates or the minority enrollment of 
the schools, the lower the quality of the teachers. In fact, 
over two-thirds of schools that were over 90 percent in terms 
of minority enrollment had a teacher quality index in the 
bottom quartile, bottom 25 percent of the state.
    In 2001, Congress recognized the teacher quality gap was a 
contributor to the achievement gap when it amended the 
Elementary and Secondary Education Act and required both states 
and districts to take immediate steps to close these gaps by 
ensuring that poor and minority children are not taught at 
higher rates than other children by inexperienced, unqualified, 
and out of field teachers.
    If states and school districts had complied with these 
provisions of the law, and if we had had stronger leadership 
from Washington, we might have found that there would have been 
much more substantial closing of the achievement gap than we 
have had to date. Unfortunately, and we studied implementation 
of the teacher equity provisions of the law, the compliance 
with these provisions has been woefully inadequate.
    And up until recently, we have had almost no leadership 
from the United States Department of Education in enforcing 
these provisions of the law. Some of the findings of our report 
include, for example, in the early years there was virtually no 
enforcement with respect to the teacher quality and equity 
provisions by the United States Department of Education. All 
state plans submitted as required by No Child Left Behind in 
2002 were approved with virtually no scrutiny of whether the 
teacher quality components were even in the plans.
    Many states got away with setting extremely low standards 
for teacher quality. States had incomplete, inaccurate, and 
misleading data, making the full extent of the gaps between 
high poverty and low poverty schools impossible to discern or 
understand.
    As late as last month, the great majority of the states had 
not produced the comprehensive teacher equity plans that they 
were required to develop in 2002 when the law took effect. We 
made some recommendations in our report, and I have submitted 
those as an attachment to my testimony. Let me just highlight 
some of them.
    Our first recommendation is that the Department of 
Education should be very vigilant and aggressive in its 
enforcement of the teacher equity provisions of the law. And by 
that we would submit that when states have not complied and not 
submitted a plan that is calculated to close the teacher 
quality gap within a reasonable period of time and in the not-
too-distant future, we have recommended that the Department 
consider withholding state funds, litigation, and other action 
to ensure compliance with the law.
    Second, we have recommended that states themselves, without 
prodding from the Department of Education but with prodding if 
necessary, act much more aggressively to reduce inequities in 
teacher quality faced by poor and minority students across 
their states, both within districts and on an intradistrict 
basis within the state.
    Next, we would like the Department also to study and 
disseminate best practices in the areas of teacher compensation 
and incentives, professional development aligned with 
standards, management practices, and school leadership.
    I would like to at this point, though, despite the fact 
that we have been critical of the Department of Education, 
commend Secretary Spellings and Assistant Secretary Johnson for 
their recent decision to move ahead with compliance and 
enforcement activity with respect to the teacher equity 
provisions of No Child Left Behind.
    We would hope that this new attention to this issue would 
result in more vigorous enforcement, more state compliance with 
these provisions, and ultimately with significant gap closing 
with respect to teacher quality.
    And finally, I would like to conclude by saying that our 
organization and many other education reform and civil rights 
organizations do recognize that No Child Left Behind calls on 
state and local and Federal officials, too, to do some very 
hard things, to muster the political will sometimes to do 
things that are very difficult to do to ensure equity for the 
children most in need and most left behind.
    But the states and the districts do this in exchange for 
receiving very substantial sums of money, notwithstanding 
debates, and I would tend to agree that the money is not nearly 
enough at the Federal level. On the other hand, just as we 
recognize the challenges inherent in implementing this law, we 
would also like to put on the table the fact that we recognize 
that No Child Left Behind is really only a beginning.
    So, for example, I heard today remarkable consensus on this 
panel that perhaps we need to have even bolder action by 
Congress to help states and districts craft innovative and 
effective solutions, not just to the teacher quality problem 
but to the problem of how we actually improve low-performing 
schools.
    I think there is significant and emerging consensus that we 
need to look at effective teachers as well as quality teachers, 
and, finally, need to examine whether our standards are in fact 
high enough for competition in the global economy.
    We look forward to working with states in the coming 
months. And thank you very much for holding this hearing and 
this opportunity.
    [The prepared statement of Ms. Piche follows:]

 Prepared Statement of Dianne M. Piche, Executive Director, Citizens' 
                       Commission on Civil Rights

    Good morning Mrs. Biggert, Mr. Davis, and members of the Committee.
    Thank you for the opportunity to testify today on the successes and 
challenges of implementing the No Child Left Behind Act in urban and 
suburban schools. The Citizens' Commission commends the Committee for 
taking up this very important and timely subject. Since 1997, the 
Commission has played a ``watchdog'' role and monitored implementation 
and enforcement of key equity provisions in Title I, including: 
standards, assessments, state accountability systems, public school 
choice and supplemental services, and, most recently, teacher quality.
    To growing numbers of civil rights leaders and activists, No Child 
Left Behind represents one of our Nation's most important and historic 
commitments to fulfilling the promise of Brown v. Board of Education 
that all children--regardless of race, ethnicity or family 
circumstances--are entitled to equal educational opportunities.
    The good news I would like to share with you today is that NCLB has 
focused attention on the needs of poor and minority children in ways 
that have never happened before in public education. Because of NCLB's 
assessment and public reporting provisions, parents, teachers, 
administrators, journalists, policymakers and others now have 
unprecedented awareness of our Nation's immoral and debilitating 
achievement gaps. We find that schools are paying more attention to all 
students, including historically disadvantaged groups of students, and 
not just those whom they view as easiest to teach. In many places, 
teaching and learning are improving, parents have more options, 
students who are below grade-level are getting the extra help they 
need, and gaps are closing.
    This is the good news. And it should be celebrated. We truly are 
making progress.
    The bad news, however, is that, as with other civil rights laws, we 
are not seeing full compliance with and implementation of what we 
consider to be the core civil rights or equity provisions in NCLB. 
These provisions include:
    <bullet> Alignment of curriculum and instruction in Title I schools 
with high state standards. We are still finding too many high-poverty 
classrooms where expectations are low, instruction is rote and dumbed-
down, and teachers are not using a curriculum matched to the state 
standards
    <bullet> Numerous parent ``right to know'' requirements. Too many 
parents, including those with limited English or literacy skills, are 
still in the dark about their child's performance, their school's 
expectations and performance, the performance of disaggregated 
subgroups, and their child's teachers' qualifications. In addition to 
missing information, a troubling number of schools and districts 
distribute misinformation about NCLB, adding to public confusion about, 
and sometimes opposition to, the law.
    <bullet> Parents' rights to transfer out of low-performing schools 
to better schools and to obtain free tutoring. Schools and districts 
continue to put up roadblocks to parents' ability to exercise these 
options under NCLB, with the result that less that 1% of eligible 
students are able to transfer and only 15-16% of eligible students have 
received supplemental educational services.
    <bullet> Parents' rights to be informed about and involved in the 
school improvement process.
    <bullet> Provisions designed to ensure that students with 
disabilities and those learning English for the first time are not 
treated as second-class citizens in our schools.
    <bullet> And finally, NCLB's critically important teacher quality 
provisions. If we cannot manage to get qualified teachers into all our 
classrooms, the promise of NCLB of closing gaps and enabling all 
students to achieve academic proficiency will never be achieved.
    I would like to spend the bulk of my time today on NCLB's teacher 
quality provisions and share with you the main findings and 
recommendations from the Commission's most recent Title I 
implementation report released earlier this summer. The report, 
entitled Days of Reckoning: Are States and the Federal Government Up to 
the Challenge of Ensuring a Qualified Teacher for Every Student?, is 
available on our website at www.cccr.org.
The Teacher Quality Gap
    The Citizens' Commission has reviewed the evidence and concluded 
that ensuring that disadvantaged students are taught by effective and 
qualified teachers is a paramount civil rights issue for school 
children in this century. A growing body of research tells us that 
teacher quality is the most significant educational variable that 
influences student achievement. Yet, in many communities, low-income 
and minority students are assigned less qualified teachers than their 
more affluent and white peers in neighboring schools and school 
districts. These less qualified teachers include those who have not 
obtained full state certification, who are teaching out-of-field, or 
who are new to the profession and inexperienced.
    For example, earlier this summer, a report from the Education 
Trust, Teaching Inequality, provided fresh evidence that low-income 
children in particular are being denied access to their fair share of 
highly qualified teachers. Looking at three states--Illinois, Ohio, and 
Wisconsin--the report found that schools with high percentages of low-
income and minority students are several times more likely to have 
teachers who are inexperienced, have lower basic academic skills, or 
are not highly qualified.\1\
---------------------------------------------------------------------------
    \1\ Because experienced, fully qualified, and highly trained 
teachers cost more than novice or probationary teachers, the teacher 
equity gap also creates tremendous financial inequities among schools. 
For example, in a 2004 study of Baltimore City, Baltimore County, 
Cincinnati, and Seattle, the difference in funds distributed by the 
districts to high-poverty schools ranged from $400,000 to $1 million 
per school.
---------------------------------------------------------------------------
    Consequently, we believe the most significant initiatives needed to 
close race and income-based achievement gaps are those aimed at 
ensuring both that all students have qualified teachers and, more 
specifically, that so-called ``teacher quality gaps'' between poor and 
minority students and other students are closed.
NCLB's Teacher-Quality Gap-Closing Provisions
    In 2001, Congress recognized that the teacher quality gap was a 
major cause of the achievement gap when it debated and amended the 
ESEA. Significantly, Congress enacted provisions not only requiring 
that all teachers be ``highly qualified'' by this last school year, but 
also compelling both states and districts take immediate steps to close 
their teacher-quality gaps.
    State plans. Under Section 1111(b)(8), each state was to have 
spelled out to the Secretary the steps it would take to ensure that 
``poor and minority children are not taught at higher rates than other 
children by inexperienced, unqualified, and out-of-field teachers.'' 
Congress required states to incorporate their teacher quality gap-
closing plan, and other plans to ensure district and school capacity to 
carry out the Act, into the overall Title I plan each state submits to 
the Secretary of Education for approval. Federal approval of these 
plans was necessary in order to keep federal dollars flowing to the 
states.
    District plans. Similarly, in section 1112, the law requires each 
local educational agency (LEA), or school district, receiving Title I 
funds to ``ensure * * * that low-income students and minority students 
are not taught at higher rates than other students by unqualified, out-
of-field teachers, or inexperienced teachers.''
    These provisions represent a bold step by the federal government to 
level the educational playing field between schools enrolling 
significant numbers of minority and low-income children and other 
schools. And certainly if states and school districts had complied--
with strong leadership from Washington--with both the letter and spirit 
of the teacher-quality parts of the law, children's opportunities to 
meet state standards would have increase exponentially.
    But sadly, implementation of the teacher-quality gap-closing 
measures has been woefully inadequate. The story we uncovered and told 
in our Days or Reckoning report is one of foot-dragging on the part of 
many states and lax enforcement by the US Department of Education, in 
carrying out the teacher quality and equity provisions of the law.
The Citizens' Commission's Teacher Equity Report
    The Commission's Days of Reckoning report coincided with the July 
2006 deadline set by Education Secretary Margaret Spellings for states 
to submit detailed plans to bring qualified teachers to the nation's 
poorest schools and classrooms, the first time since the law's passage 
in 2001 that states had actually been asked by the federal government 
to spell out their plans to comply with NCLB's teacher quality and 
equity provisions.
            Major Findings:
    <bullet> In the early years of NCLB, federal officials took 
virtually no significant enforcement action with respect to the teacher 
quality and equity requirements. All state plans submitted shortly 
after NCLB was enacted were approved with virtually no scrutiny by the 
Department of state plans to close teacher-quality gaps. In fact, these 
provisions were so completely ignored by the Department, the states and 
school districts that many of us working with community and local 
advocates were met with blank stares when we would bring up these 
requirements of the law. Similarly, when advocates and others would 
approach local school personnel about the equity requirements, they'd 
also be met with lack of awareness. Clearly, nobody had gotten the word 
out.
    <bullet> While the Department of Education looked the other way, 
states got away with setting extremely low standards for teacher 
quality.
    <bullet> These low standards, along with inaccurate and misleading 
data, allowed states to make it appear that differences in teacher 
quality between high-poverty and low-poverty schools aren't as large as 
we know they are.
    <bullet> Site visits to states by Department staff in 2004-05 
(reports of which were reviewed by the Commission for thE report) began 
to reveal how little effort or progress states were making to reduce 
teacher-quality gaps between high- and low-poverty schools. Most states 
reviewed still had not produced the comprehensive teacher equity plans 
they were required to develop in 2002, when the law took effect.
            The Commission's Recommendations Included:
    <bullet> States should take aggressive action to reduce inequities 
in teacher quality faced by poor and minority students and their school 
communities.
    <bullet> The Department of Education should immediately publish the 
state plans submitted this week on its website, www.ed.gov. The 
Secretary and her staff should carefully evaluate the likely 
effectiveness of each state's plan detailing how they say they will 
address the teacher quality and equity provisions of the law during the 
upcoming year.
    <bullet> The Bush Administration should be aggressive about 
enforcement, including potentially withholding states' federal funds, 
litigation, and other action to ensure compliance with the ``teacher 
equity'' provisions in the law.
    <bullet> While it is enforcing the law, the Department should also 
study and disseminate best practices in the areas of teacher 
compensation and incentives, professional development aligned with 
standards, management practices, and school leadership.
    The Commission is pleased that since we released our report in 
early July, the Department did post the state's plans on its website, 
and further that a rigorous peer review process recently concluded.
    We commend Secretary Spellings and her team for finally investing 
the Department's human and other resources into ensuring compliance 
with these critically important provisions. We hope, however, that her 
actions, while well-intended and rigorous, are not ``too little too 
late.'' Moreover, we remain concerned about whether the Secretary will 
take aggressive enough enforcement action in the near term to signal to 
states that the Department means business when it comes to qualified 
teachers. Finally, the Department has not specified a clear deadline by 
while all states and districts must close their teacher-quality gaps.
Conclusion
    NCLB calls on education officials at all levels to muster not only 
the expertise but the political will to do some very hard things in 
order to close achievement gaps and provide all children with the 
quality public education they deserve. Specifically, this law asks 
states and school districts, in exchange for receiving generous sums of 
money from the federal government, to themselves provide the needed 
resources to all their schools and students, to adopt and implement 
high standards, to hire and retain the best teachers, and to reorganize 
the work of the adults we charge with educating our young people. And 
to assist these ``recipients'' of federal funds in meeting these 
challenges, the Department of Education is asked to use both 
``carrots'' and ``sticks'' to implement and enforce the requirements of 
this law. We respectfully recommend to you and your colleagues that you 
continue to provide the necessary oversight of the Department. And 
again, the Commission commends the Committee for undertaking to examine 
these critically important issues of implementation and compliance as 
you consider and debate the next reauthorization.
    On the issue of the teacher-quality gap, we recognize that it is 
obviously a major cause of the student achievement gap. But it is also 
clear to us that NCLB's teacher-quality provisions are only a 
beginning. We believe that bolder action is needed by Congress to help 
states and districts craft innovative and effective solutions to bring 
and keep better teachers to the most challenging schools.
    We look forward to working with the Committee and other members of 
the House as we move forward on this most important national priority.
    Thank you.
                                 ______
                                 
    Mrs. Biggert. Thank you very much.
    I think that we are going to deviate just a little bit from 
the way we usually do things, since Mr. Duncan has to leave. So 
I think the three panelists will have an opportunity to each 
ask one question of Mr. Duncan, if that's acceptable.
    And I think Ms. Piche's testimony kinds of leads right into 
what I wanted to ask you, so I will recognize myself briefly.
    Mr. Duncan, you talked about the recruitment of highly 
qualified teachers in your schools, and said that--now that 42 
percent have master's degrees. Could you explain a little bit 
more how you are able to bring more teachers into the system 
when there is 85 percent poverty, below poverty level of the 
students?
    Mr. Duncan. I think our human resources team has done an 
extraordinary job with this in the past three or 4 years and 
have really tried to just put a spotlight on Chicago 
nationally. And so you want Chicago to be the mecca for people 
who are passionate about public education.
    And so there is no magic formula. It has been a lot of hard 
work. It is lots of visits to campuses. They have traveled a 
lot across the country, have created some very interesting 
alternative certification partnerships with entities who bring 
in mid-career changes, and there is a great talent pool.
    That result of a lot of hard work has been just doubling of 
the number, more than doubling the number of applicants, not--
there is 42 percent of the teachers we hired last year had 
master's degrees. We are going to continue to push very, very 
hard on that.
    Here in Chicago principals hire teachers. We don't. We just 
create the applicant pool, and we think it is good to have that 
match at the local level. Teachers have to want to go to the 
school. The principal has to want to hire that teacher. We 
think that's a very important concept. Our team I think has 
done an extraordinary job of creating not just the largest 
applicant pool ever but the best in terms of talent. And they 
want to continue to get better at that.
    Mrs. Biggert. Thank you.
    Mr. Davis, you are recognized.
    Mr. Davis. Thank you. Arne, I will take my one question. 
Are there any special incentives that the Chicago public 
schools have put together that will try and steer better 
trained, more experienced teachers to low-performing schools?
    Mr. Duncan. I would like to hit that a couple of different 
ways, and I want to emphasize again the teacher incentive fund 
program that Dr. Johnson talked about we think is a remarkable 
opportunity to do what we are--to take this to a much larger 
scale in Chicago, so we are pursuing that very, very 
vigorously.
    A couple of quick things. First of all, we strongly support 
national board certification here in Chicago. We think that is 
really the Cadillac version of professional development, and we 
have gone from about 19 nationally board certified teachers to 
just under 500 in the past 4 years, with a goal of going to 
1,200 within the next 2 years.
    And we are very intentionally targeting schools in high 
poverty neighborhoods to try and place nationally board 
certified teachers, as well as encouraging teachers from those 
schools to become nationally board certified. And then, 
finally, we are trying something we have never done before this 
year that I am very hopeful for, but we have to watch results 
closely.
    One of the schools that we closed for academic failure, we 
kept all the students in the school, we kept the children and 
we moved out all of the adults. And we have a new team of 
adults coming in, 30 percent of whom are either nationally 
board certified or Golden Apple winners. We are paying those 
teachers a premium, a bonus, of about $10,000.
    And this is Sherman Elementary School on sort of the--near 
Englewood, and we are going to watch it very, very closely. We 
have an extraordinary team that has run a couple of our great 
new schools in the past couple of years. The Academy of Urban 
School Leadership, they are quarterbacking this. There is a 
dynamic young principal who is going to lead that effort, and 
so we are getting into this game, and we want to continue to do 
a lot more in this area.
    Mrs. Biggert. Mr. Scott.
    Mr. Scott. Thank you, Mrs. Biggert. You and Mr. Davis have 
an opportunity to question Mr. Duncan all the time. This is the 
only shot I am going to get, so I am going to take my----
    [Laughter.]
    I thought there was a teacher shortage. You say you have a 
lot more applications. Are you paying people a lot more in this 
area than other surrounding schools?
    Mr. Duncan. No, I wish. Our teachers are actually very 
underpaid. And to be clear, we do have areas of critical need--
special education, math and science. You know, we still have--
we still have need. But in terms of, you know, absolute number 
of applicants, we are up to, again, you know, 10 to 12 
applicants for every teaching position.
    And there were a couple of studies here in Illinois a few 
years back talking about this impending teacher shortage and 
doom and gloom, and basically it has been a lot of hard work.
    Mr. Scott. Do other school divisions have shortages?
    Mr. Duncan. What is that?
    Mr. Scott. Do other school divisions in the area have 
shortages?
    Mr. Duncan. I can't speak to other districts. I wouldn't--I 
am not familiar.
    Mr. Scott. And your choice program when you have a failing 
school and you give students a choice to go to another school, 
as I understand it, you said everybody gets a choice, and 
everybody leaves. One of the problems I have had with that 
choice thing is that, as was Ms. Piche indicated, very few 
people do, and the vast majority as they say are left behind.
    And I thought I heard you say that when students are given 
the choice to go to a better school, you just clean out the 
school.
    Mr. Duncan. Let me be clear on that. What I said is--and 
this has been, again, thanks to the partnership both of the 
State Board and the Department of Education. When we close a 
school for academic failure, we prioritize those students for 
the choice program. There are many other--there are thousands 
of other students who are eligible for that.
    The challenge we have here in Chicago is that the number of 
seats available in higher-performing schools is very limited, 
so it goes back to due to the fact that you have thousands 
eligible and, you know, a couple hundred seats, we are trying 
to give those seats to the students that we think most 
desperately need them, and those are the students coming out of 
schools where----
    Mr. Scott. Well, one of the problems, as I said, that I 
have got with our choice as a sanction is it cannot accommodate 
all that ought to make the choice.
    Mr. Duncan. That is absolutely true here in Chicago as 
well. It is not even close.
    Mr. Scott. You indicated that your tutorial program works. 
What do you do to--in terms of tutorial that actually improves 
the education? And are those results typical nationally?
    Mr. Duncan. We were the only district a couple of years ago 
to track how students in our tutoring program did, the Chicago 
Public Schools tutoring versus the private providers. And I am 
going to be real clear: I love choice, I love competition. We 
welcome that. The reason Secretary Spellings allowed us to 
tutor was to be able to demonstrate that students in our 
tutoring program were very competitive with those in the 
private sector.
    And so we want to hold ourselves accountable. We are going 
to put that report out every year. You know, if our tutoring 
ever slips, we will go out of business and let somebody else do 
that. But the fact of the matter is that we have hard data 
showing that the gains, again not just the absolute test 
scores, but the gains of our students in the Chicago Public 
Schools tutoring program were very strong and were absolutely 
competitive with those in the private--being tutored by the 
private providers.
    Mr. Scott. Now, the fact that they were behind and could 
learn, is that a suggestion that the schools weren't doing what 
they ought to be doing?
    Mr. Duncan. I think it shows that there is a long way to 
go, absolutely. But to deprive students of these services is 
the wrong thing. And, again, my frustration has been--this has 
been prior to No Child Left Behind. This was a huge part of our 
core academic strategy was sort of lengthen the day and 
providing more academic resources to students.
    And part of my frustration has been we have so many more 
students who want tutoring than we are able to provide, and, 
again, that is a resource issue.
    Mr. Scott. You indicated that school construction was a 
major challenge. One of the things that we could do more easily 
than just a grant for school construction would be low or no 
interest loans. How interested would you be in that as a help 
for school construction?
    Mr. Duncan. We are interested in any resources that help us 
in school construction. We have literally a couple billion 
dollars of unmet need. And the local citizens, the local 
taxpayers have done--have been extraordinarily supportive and 
have put in about $5 billion. We recently announced another 
billion dollar program.
    We have, you know, probably $3- to $4 billion to go, so any 
support from the Federal Government will be----
    Mr. Scott. You can imagine that if your need is in the 
billions what that translates to nationally. And low interest 
loans would be a cheaper way for us to kind of get some help 
out there, and I indicate--and hearing you say that that would 
be helpful----
    Mr. Duncan. And we are never looking for a handout. You 
know, we are always interested in, you know, a local match. And 
again, you know, we want to be part of the solution and I think 
put tremendous resources into this effort. But of the about $5 
billion we have done, 84 percent has come from local property 
tax payers, only 15 percent from the state, and only 1 percent 
from the Federal Government. And we think those percents are 
way out of whack, those proportions.
    Mr. Scott. When you have a failing school, and you want to 
improve education, you have done a lot of innovation locally. 
What kind of help do you get nationally? If you have a problem, 
do you get decent guidance? Is guidance there? If you get a 
small school division, they know they are failing, and what do 
they do? Where do they look?
    Mr. Duncan. I think we have gotten good support at both the 
state and the Federal level. I mean, I think so much of this is 
about getting great leaders into schools, and we are starting 
to put great principals into schools that have historically 
struggled. The turnaround model has come out of Virginia. We 
have watched that very closely and sent our staff there. That 
has been real helpful. We have four of those schools starting 
this fall with turnaround specialists.
    So I think that the knowledge is there. My constant 
challenge is just the scale of our system of 400,000 students 
and 600 schools. I am always very patient. I want to get to--if 
something is working I want to take it to scale as quickly as 
possible. And that is probably the biggest challenge we face.
    Mr. Scott. Thank you. Thank you.
    Mrs. Biggert. Thank you. Yes, Mr. Scott, I know that we 
could go on and on with all the questioning, because this is 
very interesting.
    Mr. Duncan, we thank you.
    Mr. Duncan. Thank you so much.
    Mrs. Biggert. Thanks.
    And now we will go to the regular order of questioning, and 
I will recognize myself for 5 minutes. Dr. Johnson, in your 
written testimony you mentioned that some of the Department's 
efforts to balance the commitment to the core principles of 
NCLB with a need for flexibility at the state and local level.
    And I think that the example that you provided is--the 
tutoring for the Chicago Public Schools has been a shining 
example of how flexibility can work. And I applaud you and 
Secretary Spellings' efforts to establish that program.
    Could you comment on other areas where the Department is 
trying to provide flexibility? Maybe in particular more about 
the progress of your state growth model pilot program.
    Mr. Johnson. Thank you, Madam Chairwoman. In fact, that is 
the first one that came to mind as you asked the question. We 
have implemented a growth model pilot in two states--Tennessee 
and North Carolina. The purpose of the growth model pilot is to 
obtain data to see if there is a better way, an additional way, 
that we can measure adequate unit progress.
    We still are insistent that the standards must be rigorous, 
and that they must account for the growth of each student. And 
the Tennessee and North Carolina models address that. Actually, 
one other state also met the set of criteria, but decided for 
its own reasons not to follow through on it. And we will 
continue to move in that direction. We will open up additional 
opportunities for the six, I believe, states that made the 
final list but weren't among the two finalists. And we will 
open it up even broader than that for other states after those 
six get their chance. Just one example.
    Mrs. Biggert. Thank you. I have also heard from educators 
in my district about the challenges for highly qualified 
special education teachers. Has the Department looked into ways 
to address these challenges?
    Mr. Johnson. Well, through the teacher incentive fund that 
is clearly one way that the Department is trying to help states 
address that issue. I wasn't surprised at all at Arne's comment 
in response to I think Mr. Scott's question, getting special ed 
teachers and mathematics and science teachers remain a critical 
issue for local school systems.
    And as we emphasize critical foreign languages that also is 
going to be a major issue. But with the TIF dollars states will 
have some additional resources to address that issue.
    Mrs. Biggert. OK. I will yield back.
    Mr. Davis? Recognize Mr. Davis for 5 minutes.
    Mr. Davis. Thank you very much, Representative Biggert.
    Dr. Johnson, please convey to the Secretary--I always do 
this whenever I see her--the tremendous appreciation that we 
express as a result of some of the flexibilities that the 
Department has demonstrated in dealing with the Chicago Public 
Schools system, and especially as it has related to the 
tutoring program, which had a number of us very much concerned 
and worried for a moment. And we were very pleased that that 
situation was able to be worked out.
    Let me ask you: how does a school district access the 
incentive fund to try and make use of it to get those top 
flight teachers that they know exist to try and come into these 
low-performing, low income areas, these districts where they 
put everybody on the list and mention how many schools are 
failing. And so how does a district access that money?
    Mr. Johnson. Well, the state would access it, and then they 
would have to write a plan and have that plan approved. And in 
doing so, the monies would be available for them to be used to 
pay incentives to teachers, to go to places that are hard to 
staff, etcetera.
    Mr. Davis. So it is really block granted to states, they 
write proposals, or they make a request.
    Mr. Johnson. They write a plan that is approvable. And once 
the plan is approved, then they would access the money.
    Mr. Davis. Also, I am pretty excited about the fact that 
the Department is focusing on equity and distribution of high 
quality and experienced teachers. Your analysis of state plans 
suggests that greater Department guidance is needed to help 
districts comply with the law.
    Are there any additional thoughts that you have relative to 
how the Department expects to implement that, and to help 
states go further than where they are?
    Mr. Johnson. We have done several things. We are still 
actually having discussions in the Department about that issue. 
We try to walk a real fine line between being too prescriptive 
and not providing enough information. We are telling states 
that in order to get their plans approved they have to address 
those issues very directly.
    First, they have to know what the data say. One of the 
problems with a lot of plans was that they didn't address at 
all the factual situation. Do you know the particulars within 
your state within the different schools, districts, grade 
levels? So we are asking them, requiring them quite frankly, to 
analyze just what is their own situation. And once they do 
that, that gives them some guidance as to--or at least the 
direction as to what they need to address.
    So that is one of the things that they absolutely have to 
do, and that was one of the failings in many plans.
    Mr. Davis. Thank you very much.
    Dr. Ruscitti, I have always been intrigued by the 
educational activity in DuPage County. There was a period when 
I spent--I actually taught a class at Benedictine University 
for 10 years, and would always look forward to coming out to 
DuPage and finding out some of the great things that were going 
on.
    It sounded like you said that you had a goal that every 
student in DuPage County would ultimately perform at grade 
level. How did you arrive at that? I mean, how did the system 
arrive at establishing that as a goal that people would really 
buy into and say, ``We want to make sure that every student in 
our county will eventually perform at or above grade level''?
    Ms. Ruscitti. I know this sounds contrite, what I am about 
to say, but I really do believe that educators--that is where 
educators' hearts are at. We don't want any child to walk away 
from our system without meeting or beating state standards. So 
it was really lots of conversations, lots of working together 
again, having conversations with people, ``Well, what do you 
have that we could use?'' You know, ``What is working for 
you?'' And it is that collective kind of conversations again 
that said, ``Well, why can't we? Why can't we?''
    This is--we said, you know, this is DuPage County. If any 
county can do it, we truly do believe that we can do it. We can 
put together our collective wisdom. We can put together--you 
know what I mean? Work together, again hand in hand, and, you 
know, demonstrating what those best practices are, hopefully 
sharing, you know, with others.
    I was sharing here with Arne Duncan partnerships. It would 
be wonderful to have partnerships with, you know, the city of 
Chicago and with DuPage County schools. And so we are learning 
from and with each other.
    When you talk about the tremendous diversity that we are 
beginning to see, we could learn so much from, you know, other 
areas as well, too. So it is really kind of I guess, just to go 
back again and just say it happened with conversations and 
saying--and our belief system and challenging our belief system 
and saying, ``What did we get in this for?'' And----
    Mr. Davis. Well, I am sure my 5 minutes are probably up, 
and we will probably have another round.
    Mrs. Biggert. Mr. Scott, you are recognized.
    Mr. Scott. Thank you. Thank you, Mrs. Biggert.
    Dr. Johnson, the teacher incentive fund, can I assume that 
all of the money has been applied for?
    Mr. Johnson. We are going to make grants in October. I am 
really not sure--I apologize--I am not sure what----
    Mr. Scott. Well, it is new fund, so you haven't--you don't 
know whether or not teachers have actually landed in the low-
performing schools.
    Mr. Johnson. No. What we don't know is that it, whether 
there has been any substantial change from past situations, 
where it is pretty clear that kids in poor areas don't get a 
reasonable share of the highly qualified, highly effective 
teachers. And what the incentive funds will do is to help 
states and local school officials have additional resources to 
create incentives to get more and more of those highly 
qualified, highly effective teachers into those schools.
    Mr. Scott. But we don't know--we haven't had any experience 
to know whether or not this program has achieved that goal.
    Mr. Johnson. No, not yet.
    Mr. Scott. OK. Now, teachers choose where they go without 
any incentives one way or the other. Do they choose to go to 
high performing schools or the low performing schools?
    Mr. Johnson. I can only talk from my experience as a local 
school official, principal. Seniority historically has played a 
really significant role in where teachers get assigned. And I 
don't think that has changed dramatically over the years. So to 
whatever extent seniority and whatever rules and agreements 
have been made between teacher associations and local and state 
officials, that still is an issue, yes.
    Mr. Scott. Well, is quality and seniority, more senior 
teachers generally have more quality?
    Mr. Johnson. One would hope that that is the case; it may 
not always be the case.
    Mr. Scott. Ms. Piche, you have talked about alignment of 
instruction. What is it about No Child Left Behind that ends up 
with people--I think you have inferred--suggested that they are 
teaching the test and not teaching a broad education.
    Ms. Piche. What we found, Mr. Scott, is that in many high 
poverty schools where achievement historically has been low, of 
course there is increased pressure on the adults in the school 
to improve performance on the tests. And educators in those 
buildings, sometimes with support and sometimes without support 
from the Central Office, make choices about how to respond to 
that pressure.
    In many instances, the choices they make are bad ones. And 
I guess I would explain some of this as bad choices on the part 
of teachers and principals and others to focus instruction much 
more narrowly than it needs to be or should be focused. And 
also, to point out that in our research through a partnership 
we have called the Achievement Alliance we have been looking at 
high poverty, high achieving schools around the country.
    And what we found is almost universally--in fact, 
universally in schools we have identified teachers are not 
teaching to the test. In the highest achieving schools, they 
are teaching to a very broad set of standards. They are 
teaching to the state standards. And so what we really need to 
do is figure out ways to replicate those good teaching 
practices and help teachers and principals and others 
understand that simply narrowing the curriculum to what they 
perceive to be on the test, I would submit is malpractice.
    And we also need to have much more proactive engagement by 
the states and by the districts in producing curricular 
materials and professional development that are truly aligned 
with a broad set of standards.
    And then, I think finally what we need to do is to continue 
to work on assessment systems to make sure that the assessments 
that are being used are rich and broad assessments, and that we 
are really not measuring a very, very small slice and narrow 
set of skills and knowledge, but that the assessments are 
improved and expanded, so that they really are measuring the 
broad elements in the state standards.
    Mr. Scott. And I think Ms. Ruscitti also suggested that the 
tests are to be given in a way that you can actually use the 
results, not wait until the end of the year and find out this 
student should have had help all year long. You take tests I 
assume at the beginning and all the way through, and adjust 
your teaching and intensity of instruction to those that 
actually need it. Is that right, Ms. Ruscitti?
    Ms. Ruscitti. Yes, definitely. It is formative assessments 
at various checkpoints along the way. You know, how are our 
kids doing? So we are not waiting for the end--you know, a test 
at the end of the year, a summative kind of assessment, but 
more formative. And how can we use that data, you know, to 
improve instruction, to provide interventions for some kids who 
may need interventions, you know, in various concepts.
    Mr. Scott. And this pass/fail kind of thing where you 
achieve up to grade level, you have no credit apparently for 
bringing somebody from virtual 0 to 50 percent. But if somebody 
drops from 90 percent to 75 percent, you get full credit for 
that student. Are there different ways we can do an assessment 
to ascertain whether or not the school did its job?
    Ms. Ruscitti. I think if we begin to look at--I think it 
is--that is a very complex question.
    Mr. Scott. Well, if you can, as we go along, give us some--
we have got a year before we have to actually do something, or 
several months before we do something. If you can kind of think 
that out and help us form what the measure ought to be and how 
we ought to ascertain adequate yearly progress, there is 
another--and I guess, Dr. Johnson, I asked this. Are we sort 
of--is there a perverse incentive to encourage dropping out of 
school?
    When we passed the bill, we had an amendment in the bill to 
make sure that those schools with the high dropout rates 
weren't rewarded for those students not being counted. How do 
we make sure that school divisions don't improve their scores 
by letting people drop out?
    Mr. Johnson. Well, we would hope that professionalism and 
ethical behavior would hold here.
    Mr. Scott. Isn't there something in the law that requires 
you to----
    Mr. Johnson. Participation rate.
    Mr. Scott [continuing]. To count--to punish a school for 
having a high dropout rate?
    Mr. Johnson. Yes. In calculating AYP, you have to account 
for at least 95 percent of all students. And if you don't 
account for 95 percent of all students, then you are--it is as 
if the school didn't make it. So that is one way to look at 
that issue.
    There may be need for other incentives to keep kids in 
school. Rather than look at punitive kinds of things, maybe 
some other positive thing that we could offer. I hadn't thought 
through that, but that is one way we might approach it.
    Mr. Scott. And I guess one other question, when we are 
teaching--what is a part of a teacher--paper qualifications are 
one thing. How do you ascertain whether or not the teacher can 
actually teach? And I ask that because if you are picking 
baseball players on their knowledge of baseball, George Ware* 
would probably be the starting pitcher of the World Series, 
because he knows baseball. Can't pitch, knows baseball.
    How do you differentiate those with good paper 
qualifications and those that can actually teach?
    Mr. Johnson. That is a good metaphor. I think it is 
actually pretty straightforward. You look at results.
    Mr. Scott. Is that in the assessment, to ascertain whether 
someone is a quality teacher?
    Mr. Johnson. I am not sure it is in the assessment, at 
least not in any structured formal way. It is pretty simple 
that if a teacher routinely has students who meet the 
standards, regardless of extraneous factors like race, 
ethnicity, family income, but year after year the students who 
have that teacher or those teachers meet standards, then one 
could reasonably conclude that this is an effective teacher.
    Now, you know, there are those who can teach kids who 
already come with all of the prerequisites to be successful, 
and that is fine. But I would say an effective teacher is one 
who gets students to rigorous standards regardless of those 
other factors.
    Mr. Scott. And we have now disaggregated data. If a teacher 
is missing certain groups of students consistently, should that 
disqualify the teacher as being a highly qualified teacher? 
Because after a couple of years you are going to have enough 
data to show that.
    Mr. Johnson. The law, as it is currently written, leaves 
the definition up to the states.
    Mr. Scott. I think I have gone past my 5 minutes. If we 
have another round----
    Mrs. Biggert. I will recognize myself for 5 minutes. Dr. 
Kimmelman, you have had the experience with implementing 
education reforms and knowing the challenges that we face and 
continue to face implementing NCLB. Do you foresee any dangers 
with making significant changes to NCLB during the 
reauthorization?
    Would the fact that we are talking about change actually 
lead to the feeling that--and I think Dr. Ruscitti mentioned 
about that she has seen so many things come and go, you know, 
different educational processes, do you there could be a 
feeling that these reforms and commitments laid out in the law 
are temporary?
    Mr. Kimmelman. Well, I think the devil would be in the 
details with respect to how you defined significant changes and 
what the significant changes were. For example, if there were 
significant changes to the determination of adequate yearly 
progress, and it made for a better implementation of NCLB, then 
that would be in the best interest of all who are involved in 
educating students.
    I don't think it would be in the best interest of Congress 
to radically decimate the overall law, because it would mean 
requiring states and local school districts to go back and 
start over again, which would be not only costly but would also 
demonstrate that ``and this too shall pass'' syndrome in 
schools.
    So, you know, I think that what I proposed in my testimony 
was that over the course of the next year you listen to those 
who are actively involved in implementing NCLB, and those who 
offer wisdom regarding changes that are based on evidence that 
demonstrate that the fundamental principles of NCLB are being 
adhered to, but could do a better job with the law, would make 
a wise decisionmaking process for Congress.
    Mrs. Biggert. And I have to say I agree with you, but I 
think that, you know, there are some people that are critics of 
NCLB that would rather see dramatic changes. And I think we 
have to be careful, and that is really why we are doing these 
hearings early on, so that we have time to work with that. So I 
thank you for that.
    And I know that you have spent some time in discussions on 
the growth models that track student improvement. Could you 
comment on the challenges in implementing these types of 
models?
    Mr. Kimmelman. Well, I am not a psychometrician, so I don't 
want to wander too far into that territory. We do have somebody 
at Learning Point who has worked on a value added concept paper 
and is very good in that field. But what I would suggest is 
that over the course of the year I think there are a number of 
people who could offer good advice to Congress about different 
ways to assess the growth of students, and determine whether 
they, in fact, are meeting the intent that Congress set forth 
for students to make adequate yearly progress.
    And so in that regard it--when you get into value added and 
you make all these radical changes, it could result in a new 
cry for additional funding that goes well beyond what Congress 
may be able to appropriate for just the basic implementation of 
the law, and also may motivate states to change the systems 
that they are currently working on and improving that may be a 
start over again process that would not be beneficial either.
    Mrs. Biggert. Thank you.
    Dr. Ruscitti, you talked about the need for a marketing 
campaign, and I would agree with you that I don't think that we 
have explored it enough, but--or explain NCLB to the public. 
Could you talk a little bit about how we could go about doing 
that? Is this up to Congress? Is this up to the school 
district? Is it up to the local school to--I mean, they have a 
forum with parents.
    Ms. Ruscitti. I think our schools do a really good job in 
trying to, you know, market and explain. But part of what 
happens when it is up to the local school district is it sounds 
like, oh, well, you are just saying that type of thing, to of 
course you are going to be saying those things, that there is--
you know, there is punitiveness to this, you know, etcetera, 
etcetera.
    Oftentimes, particularly if you are a child that--or if you 
are a parent of a child that is not meeting adequate yearly 
progress, you don't want to hear any excuses. So I think that 
there is--it is a combination of factors I think you really do 
have to have. You know, of course the school districts are the 
most important to try to get information out and explain it, 
because they have that great partnership with schools, you 
know, I mean, with their parents and their communities.
    But I think it has to take a much more concerted effort. I 
think one of the things I shared with all of you is we put 
together like the little ABCs of NCLB. And we go out there and 
we work with, you know, parent groups and community groups and 
just kind of talking about what it is and what it isn't, and 
how they can be of help as well, too, in understanding, you 
know.
    So I think it is a concerted effort. The state as well, 
too, I think could--you know, maybe there are some things they 
can't--and it is not just producing more paper and things like 
that, because you have got to bring people to the table. You 
have to invite them in. And again, too, that invitation to come 
in I think has to happen at the local level with support from, 
you know, people at the county level, people at the state 
level, so they see this as more of a concerted effort.
    Mrs. Biggert. Do you think that there are some school 
districts that, you know, have gone kicking and screaming to 
implement NCLB, or is that kind of over?
    Ms. Ruscitti. I think it is over, and I did a lot--I had a 
lot of conversations with educators before I came here today to 
kind of get a sense of their feeling, you know, where they were 
at. I think there was more of a sense of, OK, we are on the 
right track. There is concern, though. There still continues to 
be concern that at some point in time down the road, you know, 
all of the schools in DuPage County could have a possibility 
of, you know, being reconstituted, if we don't, again, get 
every single child.
    So on one hand we want to make sure that every single child 
is, you know, meeting or exceeding state standards, but there 
always is that reality back there as well, too. So there is 
that concern, so we are trying to balance that as best as we 
can.
    Mrs. Biggert. Do you think that we have had the--you know, 
provided the flexibilities for the state and for the school 
districts in determining the tests and things? Do you think 
that that has worked, or has it been--did the schools 
understand? I worry about how they set up the percentages and 
things, that, you know, they are going to have to reach that. 
And so you start out low and then suddenly there is--you know, 
every year is a big jump that they are going to have to meet. 
Can they meet those?
    Ms. Ruscitti. I think there has to be more conversations 
between, you know, the Arne Duncans, the educators, you know, 
around the state, too, in regards to if there is to be some 
flexibility, whatever, and how it is implemented. And lots more 
again, too, lots more conversation, lots more dialog, lots more 
data I think has to come to the table, too. And by unbiased 
groups, you know, not necessarily from someone who has a great 
stake in my school district, but by some unbiased groups, too.
    Mrs. Biggert. Thank you.
    Mr. Davis, you are recognized for 5 minutes.
    Mr. Davis. Thank you very much. Ms. Piche, I have always 
been interested in the work that your organization does and the 
focus to some real degree on the protection of the rights of 
individuals, of students. And I was just thinking that when I 
think of special education that African-American males 
constitute, for example, the largest population group in 
special ed that you find in practically any school district 
where African-American males attend. I mean, it has always 
amazed me.
    Are there any special things that your organization looks 
at as it attempts to make sure that individual students who 
must be educated by school districts are in fact accorded and 
afforded rights to assure that they might be getting the proper 
education and not kind of shunted aside in any kind of way?
    Ms. Piche. Yes. That is--that sort of goes I think to the 
heart of the challenges of No Child Left Behind, I think, and 
where we are now. One of our continuing concerns, Congressman, 
is with respect to the children who are furthest behind.
    And students we find who are most at risk in terms of not 
meeting state standards--and if we project out No Child Left 
Behind until 2013, 2014, when all students are supposed to 
become proficient, if we follow the same trend line that we are 
following now, the students who will still be behind when 90 
percent of students are proficient, 80 to 90 percent are 
proficient, will be the students with multiple risk factors.
    And currently, in our public school systems, based on data 
that we do have, students who are African-American and add to 
that special education eligible, low income families, are 
probably the most significant risk and furthest behind.
    What we don't have--and this is something I think the 
Federal Government, the Congress, ought to look into--are data 
systems that can track multiple risk factors, so that we can 
examine what it means in our school systems to have a 
disability and to come from a low income family, to have added 
risk factors associated with race, with gender, with whether or 
not your first language is English, for example, because we 
find that students in these categories are the students who 
currently are not meeting the standards.
    They are often the students who were placed in below grade 
level classes, if they are identified for special education, 
whereas in wealthier communities white students and students 
with higher income families and special education don't 
necessarily get placed in lower classes. They may actually be 
in honors classes.
    Another population of tremendous concern to us are students 
who do not have stable homes--homeless students and students 
whose families move a lot. And I think we found that the 
Katrina disaster--we still have students who are not accounted 
for. And at this point in time, there is absolutely no 
government agency that has done a complete accounting of where 
those missing children are, whether they are enrolled in 
school, and whether their rights under state and Federal law 
are actually protected.
    So I think we have got to focus more on these multiple risk 
factors, and I think we also have to look at what it means to 
have a right to a public education. And the way Title I is 
structured there are very few individual rights. We don't have 
the same kind of statutory scheme as we have under the IAAA, 
for example, but we do have some very powerful entitlements if 
you will that students should have an expectation that they are 
provided with high quality teachers, they are provided with 
after school tutoring, and those kinds of things.
    So I think we do need to keep a focus on what we actually 
are trying to provide the individual students, the larger 
groups of students.
    Mr. Davis. So you are sort of saying that even though we 
have made progress we have got to keep digging----
    Ms. Piche. Absolutely.
    Mr. Davis [continuing]. Because there are some population 
groups who present some real serious challenges, if we are ever 
to get where Dr. Ruscitti is talking about, making sure that 
every person who is capable of functioning at grade level is 
able to do so.
    It sort of reminds me of an old fellow in the neighborhood 
where I used to live when I was a kid who was a great 
philosopher, and he used to tell us, as he would try to teach 
us things, that a little knowledge is a dangerous thing.
    [Laughter.]
    He would say you have got to drink deep, because shallow 
drinking intoxicates the brain. And my buddy and I would always 
try to figure out what he was talking about, and I guess that 
is sort of what he meant.
    Dr. Kimmelman, you work with many entities hands-on. I 
mean, you help school districts or entities actually look at 
how to make real the things that they talk about. And I was 
thinking of this business of teacher quality and how districts 
would determine that.
    I heard a story of a little school that had a condition 
that whoever had the most experience generally became, always 
quite frankly, became the principal. And it finally got down to 
the point where a fellow had been there for 19 years, and they 
needed a new principal and they passed over him and elected 
another person who had been there 5 years.
    So he went in to see the Chairman of the Board and says, 
``I don't understand this. We have always selected the person 
with the most experience to be the principal.'' And he says, 
``I have had 19 years of experience, and you have selected 
somebody who has only got 5.'' And finally, the Chairman said, 
``Well, we still have the same approach. We just evaluate it a 
little differently. In your case, we think that you have 1 year 
of experience repeated 19 times.''
    [Laughter.]
    And the other person actually had--how do you help them 
determine these nitty-gritty things? And do they ever talk much 
about the role of parental involvement and what that means in 
the education mix to really move a district or move a school or 
be able to implement something that they are trying to do?
    Mr. Kimmelman. It is ironic what you said. I left teaching 
after 5 years to become a principal. I spent both of my careers 
in the basement.
    One of the larger--not one of the larger, but one of the 
significant projects in our organization has been a result of 
the encouragement through Representative Biggert for a No Child 
Left Behind implementation center. And we undertook the task of 
trying to identify districts with the most significant 
challenges with teaching.
    The best answer that I can give you, based on what we are 
learning, is how difficult this process really is. These 
districts really need support and assistance in focusing on 
acquiring the right information or data to determine what they 
need to do next. Then, they need help in developing research-
based professional development plans that really focus on using 
that data and what is the best evidence for effective teaching 
to implement those changes, to help them work with the 
students.
    It is sort of the metaphor you used in baseball, which I 
used--you know, I used a number of times in the book that I 
wrote that sports are a great metaphor for education. All of 
the things you do in sports you videotape over and over to 
determine how to get better and refine your skills. And you use 
data for everything. Every day there is a box score that tells 
you how much better you are doing.
    And if we could provide the support for those situations 
that are the most challenging with coaches--people are talking 
a lot about having individual coaches working with them to help 
their teachers get better, I think we could make a lot of 
progress. But it is real transformational kind of work that is 
the kind of work that Mr. Duncan talked about earlier, that a) 
you have to be willing to take the risk and suffer the 
consequences for making difficult decisions; and then, b) you 
have to be willing to invest in making that transformational 
change.
    Mr. Davis. Thank you very much.
    Mrs. Biggert. OK. Mr. Scott.
    Mr. Scott. Thank you.
    Mrs. Biggert. You are recognized for 5 minutes.
    Mr. Scott. That is going to be tough.
    Ms. Piche, you indicated that due to the challenges of 
those that are far behind--does the fact that some were getting 
somebody from virtual 0 to 50 getting no credit for that 
effort, and it certainly is a disincentive to even bothering 
with that person, compound the problem? Because you only get 
credit if they pass the test. If they come close, if you bring 
them way out but not over the bar, then you get no credit for 
that student and all the effort and expense that went into it.
    Ms. Piche. We have seen this problem even before No Child 
Left Behind with the Improving America's Schools Act. We have 
seen it in state accountability systems predating No Child Left 
Behind. The old law had a provision requiring substantial and 
continuous progress for schools and for subgroups, and we sort 
of kind of have that now, but we don't have it to the extent 
that perhaps we could if we had a growth model system that had 
some integrity.
    And I should note that our Chairman, Bill----
    Mr. Scott. But you would get credit for bringing somebody 
from 0 to 50 but not to 70.
    Ms. Piche. A growth model--a strong growth model program 
could do that. Our Chairman, Bill Taylor, served on the 
evaluation team as a peer reviewer for Secretary Spellings. And 
one of the--and we would like to see strong growth models as an 
option in the accountability system.
    Mr. Scott. Is that in the system now?
    Ms. Piche. It is not in the system now. Either you are 
proficient or you are not proficient.
    Now, some states have incorporated into their 
accountability system through a variety of, you know, 
mathematical measures the concept of students being partially 
proficient. And they have been approved to do that by the 
Department of Education.
    On the growth model system what you would do is you would 
measure whether the student had made at least a year's progress 
for a year in school. But the important caveat to that is that 
for many students simply making 1 year's progress is not 
sufficient if they are that far behind, so I think the 
challenge is finding a balance, making the system sensible.
    Mr. Scott. Thank you. Just for the record, does anyone want 
to suggest that we start gathering disaggregated data? That is, 
data on subgroups. Does anybody want to go back to where you 
just do overall averages? So we just want that for the record.
    The I guess final question I have got is, when you are 
setting standards, it is my understanding that states kind of 
homemake their own standards. Is there a reasonable basis to 
think we ought to have Federal standards so that everybody is 
achieving at a high level? Dr. Johnson?
    Mr. Johnson. I figured I would be able to comment on that. 
I think Congress----
    Mr. Scott. If they have minimum standards.
    Mr. Johnson. I am going to need to separate my current role 
from when I was State Chief.
    [Laughter.]
    I think Congress has been pretty clear that it does not 
want the Department of Education trying to develop national 
standards or encourage national standards, and that is the 
Department's position.
    When I was State Superintendent in Mississippi, if someone 
had come to me and said, ``We can create--we can help you 
create a higher level of standards, more rigorous and relevant 
set of standards, would you be for it or agin it?'' I would 
have been for it.
    Mr. Scott. But then, they say they are going to punish you 
for having set high standards, because you are not going to be 
proficient and you will not have achieved adequate yearly 
progress based on high standards.
    Mr. Johnson. Well, see, I think that one doesn't 
necessarily follow the other.
    Mr. Scott. OK.
    Mr. Johnson. My experience as the person, the chief 
academic officer in North Carolina for 10 years at the 
Department of Ed there, is that the more you raise the 
standards the more likely it is that people will find ways to 
reach the more rigorous standards. We overappeared about 30 
years, continually raised standards in North Carolina.
    Now, that State is not where it needs to be, but if you 
look at the track record over the last 15 years you will see 
NAEP scores and SAT scores with fairly dramatic improvements. 
We would raise them, and people would fuss at us. But they 
still find ways to meet them.
    And we would raise them again, and they would yell at us 
again. And they would still find ways to reach it. So my sense 
is we have to continually raise the standard.
    We also have to give people hope. Several of my colleagues 
have talked about diagnostic information, formative assessment. 
One of the big pieces I think that is missing is a 
comprehensive approach to having states help local systems with 
diagnostic assessments.
    Now, one of the reasons you get so much pushback from 
teachers, at least initially, is that teachers would look at 
the goals and look at what their own experience has told them, 
and say, ``You know, there is not much chance of me being 
successful here, so I am going to push, I am going to fight, I 
am going to pushback on this.''
    But with additional information about strengths and 
weaknesses of students, and how they may address those 
strengths and needs, my sense is that that would be one of the 
levers that we can push that will move this thing even more 
aggressively forward. So I think we need to do a lot more with 
formative assessment, diagnostic assessment.
    Mr. Scott. Well, Madam Chairman, I want to thank you for 
holding the hearing. We have had an excellent panel, but I 
again want to express my appreciation for the leadership that 
you have provided and Danny Davis has provided, for educating 
our nation's children.
    Thank you.
    Mrs. Biggert. Thank you. And thank you for your excellent 
questions. You were a real addition to our panel.
    And, Mr. Davis, as always you have provided the excellence 
that is needed on this Committee.
    And I would like to thank the witnesses for their valuable 
time and testimony, and both the witnesses and members for 
their participation. I would also like to thank the staff of 
the Education Committee, and the majority staff, Amanda Farris 
and Lyndsey Mask; and the minority staff, Lloyd Horwich; and 
Mr. Davis' staff member, Jill Hunter Williams; and my staff, 
Brian Peterson, Don Trujano*, and Shaun O'Reily, for being 
here.
    And most of all, I would really like to express our 
appreciation to Chief Judge Holderman for allowing us to use 
this beautiful courtroom; and Larry Collins, the Administrative 
Assistant to Chief Judge Holderman.
    And with that, if there is no further business, this 
Subcommittee stands adjourned.
    [Whereupon, at 12:38 p.m., the subcommittee was adjourned.]
    [Excerpts from a report submitted by the Citizens' 
Commission on Civil Rights follow:]

                           Days of Reckoning

Are States and the Federal Government Up to the Challenge of Ensuring a 
                  Qualified Teacher for Every Student?

          Phyllis McClure, Dianne Piche and William L. Taylor

Summary and Recommendations
    Improving the quality and equitable assignment of teachers is a 
paramount civil rights issue for school children in this century. A 
growing body of research tells us that teacher quality is the most 
significant educational variable that influences student achievement. 
Yet, in many communities, low-income and minority students are assigned 
less-qualified teachers than their more affluent and white peers in 
neighboring schools and school districts.
    In 2001, Congress took bold steps to ensure that all children in 
our public schools are taught by qualified teachers. The No Child Left 
Behind Act (NCLB) requires, among other things, all teachers to be 
``highly qualified'' within four years of the law's enactment, and 
states and districts to remedy the disproportionate and inequitable 
assignment of less-experienced and less-qualified teachers to low-
income students and students of color.
    By July 7, 2006, all states are required to submit to the U.S. 
Secretary of Education Margaret Spellings revised plans stating exactly 
what they plan to do during the 2006-2007 school year in order to meet 
the teacher quality requirements of the law. States also must include 
written plans detailing steps they will take to ensure that ``poor and 
minority students are not taught at higher rates than other children by 
inexperienced, unqualified, or out-of-field teachers.''
    These revised plans are needed because earlier this year the U.S. 
Department of Education announced that no state had met all of the 
teacher quality provisions in the law.
    From early 2002 through the end of the 2004 2005 school year, both 
the states and the U.S. Department of Education amassed a dismal track 
record when it came to ensuring compliance with the teacher quality 
provisions of the law.
    Starting midway through 2004, however, site visits conducted in 
each state by the U.S. Department of Education for monitoring purposes 
often contradicted the rosy and incomplete data being reported by the 
states. Forty of these reports have been reviewed for this paper.
    The Bush Administration has signaled its in tention to make a mid-
course correction and, under Secretary Spellings, has begun to devote 
serious attention to NCLB's teacher quality provisions. Halfway through 
2005, the Department finally began taking action to enforce the teacher 
quality provisions of the law, including the teacher equity provision 
that had been all but ignored in previous years. The Department's 
actions included publishing expanded policy guidance, signaling states 
that compliance with these provisions is required, and--more 
controversially--giving states that had made a ``good faith'' effort to 
comply with the law an extra year to meet the law's goals.
    In the weeks and months following the states' submissions of their 
July 7th plans, there are several key issues that Congress, advocates, 
educators, and the press should be sure to track, including: (a) 
exactly how states say they will address the teacher quality provisions 
of the law during the upcoming year, (b) how carefully the Department 
of Education evaluates and enforces the revised state plans during 
2006-2007, and (c) whether states take meaningful action to address the 
law's requirements or continue their patterns of resistance, delay, and 
misreporting.
    Increased scrutiny during 2006-2007 is nec essary because states, 
districts, and the U.S. Department of Education have over the past four 
years demonstrated high levels of inattention and, in some instances, 
deep-seated resistance to the law's teacher quality provisions. 
(Already, some states, like Utah, have indicated in the press that they 
plan to ignore the July 7th date and submit their revised plans in the 
fall.)
    Providing qualified teachers for low-income children is one of the 
most important and challenging elements of the law. The likely 
consequence of a continued lack of state and federal enforcement is 
clear. The most significant national effort to date to reform and 
improve public schools will be deemed a failure, not because it had 
been tried and found wanting, but because it had really not been tried 
at all. And the losers will be children.
Recommendations
            Transparency and Open Records
    1. The Department of Education should immediately post on 
www.ed.gov the state teacher equity plans that were reviewed by its 
staff in connection with Title II site visits and compliance reviews.
    2. The Department should immediately post on www.ed.gov all state 
revised teacher quality plans it receives. The teacher equity plans 
required by Sec. 1111(b)(8) and all other supporting documents should 
be posted as well.
    3. States should also post these plans on their own state education 
agency websites. Data Quality
    4. All self-reported data from states and school districts should 
be subject to verification and audit. The Inspector General should 
immediately begin spot-checking data submitted by the states to 
demonstrate compliance with Sections 1119 and 1111(b)(8). The 
Department should not accept state data at face value until it knows 
(a) what definitions were used and (b) whether data are reported 
correctly by teacher, by classes taught, and by classes not taught.
    5. States found to have submitted incomplete, inaccurate, or 
fraudulent data should be penalized appropriately.
    6. The Department and the states should seek advice and assistance 
from data-quality experts and a range of education stakeholders in 
identifying the data collection needs and challenges with respect to 
evidence needed to demonstrate compliance with Sections 1111(b)(8) and 
1112(c)(1)(L). The Department should report these challenges to 
Congress and the public and take steps to provide immediate technical 
and other assistance to states and school districts to ensure that 
needed information is collected, examined and disseminated.
            Fostering Innovation
    7. The Department should continue to encourage, support and 
disseminate innovative ways that districts and states can move quickly 
toward meeting the teacher equity provision of the law. This could 
include, e.g., examining the merits of: a) various alternative 
certification programs, along with alternate routes to the teaching 
profession such as Teach for America, Troops to Teachers, and mid-
career transfers, and b) additional compensation, loan forgiveness, 
pay-forperformance, and other incentives needed to attract and retain 
highly qualified teachers to the schools with the highest needs and 
greatest shortages. The Department should also consult with teachers 
and principals in high-achieving, high-poverty schools and disseminate 
information about best practices in school leadership and management.
            Enforcement
    8. The Department should resolve to review all state teacher equity 
plans under a familiar and time-tested standard in the educational 
equity field. In landmark cases enforcing its 1954 decision Brown v. 
Board of Education, the Supreme Court emphasized in 1968 and again in 
1971 the duty of education officials to produce a plan ``that promises 
realistically to work now.'' The Court further declared that a remedial 
plan should ``be judged by its effectiveness.''*
---------------------------------------------------------------------------
    *Green v. County School Board, 1968; Swann v. Char lotte-
Mecklenburg Board of Education, 1971.
---------------------------------------------------------------------------
    9. The Department should require states to demonstrate that they 
have and will utilize a process to enforce compliance by school 
districts with the requirements of Section 1112(c)(1)(L).
    10. The Department should begin to impose sanctions--including 
withholding of funds or other legal action--against states that cannot 
demonstrate full compliance with the teacher equity provisions of the 
law. The Department should take these actions against states that a) do 
not submit detailed equity plans that meet the requirements of Sec. 
1111(b)(8) by July 7, 2006, b) are not making significant progress in 
closing the teacher-quality gap both within districts and on an 
interdistrict basis within the state, or c) do not demonstrate a 
probability of taking effective steps to remedy inequities in the 
distribution of teachers during or before the end of the 2006-2007 
school year.
    11. The Department should seek the advice and counsel of a broad 
range of stakeholders including representatives of parents, educators, 
and civil rights organizations.

                               Section I

Introduction
            Teacher Equity
    The Citizens' Commission on Civil Rights believes every child has 
the right to an education that will prepare her or him for 
postsecondary education, meaningful work and full participation in our 
democracy. We believe in the role of public schools as the ``great 
equalizer'' in providing opportunity for academic success to the 
children of rich and poor alike. Finally, as a natural extension of the 
principles of Brown v. Board of Education, we have long endorsed a 
strong federal role to ensure that our nation's public school systems 
live up to our national demands for both equity and excellence.
    The evidence convinces us that improving the quality and equitable 
assignment of teachers is a paramount civil rights issue for school 
children in this century. A growing body of research tells us that 
teacher quality is the most significant educational variable that 
influences student achievement. Yet, in many communities, low-income 
and minority students are assigned less qualified teachers than their 
more affluent and white peers in neighboring schools and school 
districts. Perhaps the most significant initiatives needed to close 
race and income-based achievement gaps are those aimed at ensuring both 
that all students have qualified teachers and, more specifically, that 
so-called ``teacher quality gaps'' between poor and minority students 
and other students are closed.
    In this report, we examine the new provisions on teacher quality 
contained in the 2001 Amendments to Title I of the Elementary and 
Secondary Education Act of 1965. These provisions are a bold step by 
the federal government to level the educational playing field between 
schools enrolling significant numbers of minority and low-income 
children and other schools. If states and school districts can comply--
with strong leadership from Washington--with both the letter and spirit 
of the teacher-quality parts of the law, children's opportunities to 
succeed will increase exponentially. If education officials at any 
level lack the political will to ensure all students have capable 
teachers, we can anticipate that large numbers of our most vulnerable 
children will continue to fall behind.
The Problem: A Gaping Teacher Quality Gap
    When Congress debated and eventually adopted the teacher quality 
provisions of No Child Left Behind, it was aware of a persistent 
``teacher quality gap'' across the United States. That is, that 
minority and low-income students are disproportionately taught by less 
qualified teachers, including those who have not obtained full state 
certification, who are teaching out-offield, or who are new to the 
profession and inexperienced.
    Since the law's enactment, even more evidence has been gathered on 
the widespread teacher quality gap.
    Earlier this summer, a report from the Education Trust, Teaching 
Inequality, provided additional evidence that lowincome children in 
particular are being denied access to their fair share of highly 
qualified teachers.
    Looking at three states--Illinois, Ohio, and Wisconsin--the report 
found that schools with high percentages of lowincome and minority 
students are several times more likely to have teachers who are 
inexperienced, have lower basic academic skills, or are not highly 
qualified.
    Because experienced, fully qualified, and highly trained teachers 
cost more than novice or probationary teachers, the teacher equity gap 
also creates tremendous financial inequities among schools.
    In a 2004 study of Baltimore City, Baltimore County, Cincinnati, 
and Seattle, the difference in funds distributed by the districts to 
high-poverty schools ranged from $400,000 to $1 million per school.
    According to another recent study from the Education Trust, 
California's Hidden Teacher Spending Gap, high- and low-minority 
schools in the ten largest school districts in California have spending 
gaps that range from $64,000 to $500,000 per school.
    The study also found that, collectively, teachers serving students 
in schools that enroll low-income K-12 youngsters receive, on average, 
$140,000 less than teachers in wealthy schools. That gap grows to 
$172,000 for students in schools that serve mostly Latino and African-
American students.
    At least a few states have published their own data on the extent 
of the teacher quality gap between high-poverty and low-poverty 
schools. For school year 2004-2005:
    <bullet> Ohio reported that 77 percent of high school teachers 
teaching high-poverty students were highly qualified, compared to 95 
percent of those teaching low-poverty students.
    <bullet> New York reported that 82 percent of its elementary school 
teachers teaching high-poverty students were highly qualified, compared 
to 98 percent of teachers working with low-poverty students.
What Makes the Law's Teacher Quality Provisions So Challenging?
    Implemented properly, the teacher quality and teacher equity 
provisions of the law require states, districts, and schools to make 
changes that rival or even exceed the changes required thus far of them 
under other provisions of the law. This is because, more than any other 
set of provisions in the law, the teacherquality ones contemplate new 
institutional arrangements in both advantaged and disadvantaged 
schools.
    Teachers, like other professionals, tend to gravitate to employers 
who pay higher salaries and offer better working conditions. In most 
states these are school districts with an affluent population, not 
those with substantial numbers of poor children and children with 
special needs. Attracting high quality teachers is also difficult in an 
era when other more remunerative professional opportunities are now 
open to women and others once limited to teaching by discrimination.
    Consequently, getting high-quality teachers into schools with the 
greatest needs will require rewards and incentives and perhaps 
differentiation in salary and status for those willing to take on the 
challenge of teaching students with the greatest needs. But bold 
initiatives to elevate teachers' status and close the gap seem in short 
supply.
    Even the law's reporting requirements with respect to teacher 
quality have presented a major challenge for many states. According to 
Technology Counts 2006, only five states--Arkansas, Georgia, Louisiana, 
Ohio, and Tennessee--collect every form of information in the survey on 
both students and teachers, and are able to link their student and 
teacher data systems.\1\
    In addition, the law contains potential loopholes that weaken its 
impact, including allowing states to provide selfreported (unaudited) 
teacher quality data, and not requiring states to obtain prior approval 
from the Department for definitions of teacher quality.
What the Law Requires: ``Highly Qualified Teachers'' and Action to 
        Close the Teacher Quality Gap
    Five years ago, when Congress amended the Elementary and Secondary 
Education Act of 1965 to create No Child Left Behind (NCLB), it adopted 
as federal policy that all students must achieve their states' 
proficiency levels in reading and mathematics by the 2013-2014 school 
year.
    The law contained significant new provisions in federal education 
law calling for strengthened state accountability systems, increased 
parental choice, and other measures to close student achievement gaps. 
Like its predecessor, the Improving America's Schools Act of 1994 
(IASA), NCLB placed unprecedented new responsibilities on educators and 
education officials at all levels: federal, state, district, school and 
even classroom.
    The bulk of the early implementation efforts with respect to the 
law focused on the assessment and accountability provisions. These have 
included, for example: definitions of ``adequate yearly progress,'' 
developing annual assessments in reading and math, and providing 
tutoring or choice options to students in low-performing schools.
    Until recently, however, the law's teacher quality provisions were 
less prominent and not widely reported on. In short, these sections of 
the law require two things. First, all core academic classes must be 
taught by ``highly qualified teachers'' by the end of the 20052006 
school year. Second, both states and school districts must ensure that 
``poor and minority students are not taught at higher rates than other 
children by inexperienced, unqualified, or out-of-field teachers.'' 
(See Appendix A.)
All Teachers ``Highly Qualified'' (Sec. 1119)
    The basic requirement for providing highly qualified teachers in 
all core academic subjects is found in Section 1119 of the law. Here 
the law requires that all teachers of academic core classes meet the 
federal definition of ``highly qualified'' by the end of the 20052006 
school year. It also requires states to redress the disproportionate 
use of under-qualified teachers in high poverty and minority schools.
    To be ``highly qualified'' teachers of core academic subjects must 
have (1) a bachelor's degree, (2) full state certification, and (3) 
demonstrated subject matter competency in the academic subject they 
teach. This definition pertains to all teachers in public schools, 
veteran and newly hired alike. And it applies regardless of whether the 
school receives federal Title I financial assistance, or whether the 
students are disabled or limited English proficient.
    NCLB also requires states to adopt a definition of ``highly 
qualified'' aligned with the federal law and to report each year the 
progress that is being made in reaching the 100 percent ``highly 
qualified'' by the deadline. And to jump-start the process, Congress 
required all new teacher hires in Title I schools to be highly 
qualified, beginning with the first day of the 2002-03 school year.
    Along with reporting this information to the U.S. Department of 
Education, states have to make data available to the public and to 
parents about the percentage of teachers in the state and by district 
that met the state's definition of ``highly qualified.''
The Teacher Quality Gap-Closing Requirements (Secs. 1111 and 1112)
    Section 1111(b)(8)(C) of Title I requires states to take steps to 
ensure that ``poor and minority children are not taught at higher rates 
than other children by inexperienced, unqualified, and out-of-field 
teachers.'' Congress required states to incorporate their teacher 
quality gap-closing plan, and other plans to ensure district and school 
capacity to carry out the Act, into the overall Title I plan each state 
submits to the Secretary of Education for approval. Federal approval of 
these plans is necessary in order to keep federal dollars flowing to 
the states.
    Similarly, in section 1112, the law requires each local educational 
agency (LEA), or school district, receiving Title I funds to ``ensure * 
* * that low-income students and minority students are not taught at 
higher rates than other students by unqualified, out-of-field, or 
inexperienced teachers.''
    States are also required to establish measurable objectives for 
each LEA and school that, at a minimum, shall include an annual 
increase in the percentage of highly qualified teachers in each LEA and 
school to ensure that all teachers teaching in core academic subjects 
in each public elementary and secondary school are highly qualified not 
later than the end of the 2005-06 school year.
Reporting Requirements
    The law also has a number of important provisions requiring 
transparency and reporting of teacher quality information to parents, 
the public, and to the U.S. Department of Education and the Congress. 
For example, teacher quality information is required on state ``report 
cards.'' Parents have a right to know their child's teacher's 
credentials to teach and whether s/he is highly qualified under the 
law.
    The law requires each state to report on whether it has met its 
performance targets in its consolidated application, including 
indicators regarding qualified teachers and the percentage of classes 
being taught by highly qualified teachers in the aggregate and in high 
poverty schools.

                               Section II

A Dismal Track Record (2002-2005)
    From the vantage point of summer 2006, it is clear that 
implementing these teacher quality and equity provisions of the law was 
not a priority for either the states or the Bush Administration for the 
first three years after the law was enacted.
    While messages on compliance with the law generally were clear and 
forceful with respect to the testing and accountability requirements, 
the Bush Administration in its first term was relatively silent on 
teacher quality.
Episodic Guidance and Lax Enforcement
    The Department's non-regulatory policy guidance on teacher quality 
has been a moving target. Since 2002, the Department has released 
several drafts but still has yet to finalize the guidance, even as 
statutory deadlines have come and gone. Moreover, the Department has 
undertaken virtually no enforcement of the teacher quality equity 
provisions. Consequently, states and school districts were left largely 
to their own devices when it came to defining, implementing, and 
reporting progress on the teacher quality provisions of the law most 
needed by disadvantaged students.
    In June 2002, six months after the law was enacted, the Department 
issued the first draft non-regulatory guidance on the Improving Teacher 
Quality State Grants (Title II Part A) that contained a section on 
highly qualified teachers. This draft guidance was subsequently revised 
at least four more tines: December 19, 2002; September 12, 2003; 
January 16, 2004; and August 15 2005. As the December 19, 2002 document 
announced, the guidance was designed to provide assistance to state and 
local program administrators as they implemented Title II Part A grants 
and was to be viewed as a ``living document.'' Each successive version 
of the draft guidance included more issues addressed in question and 
answer format. The field obviously had many questions about how the new 
law applied to a multitude of issues, and the answers became more 
numerous and more expansive. The number of Q's and A's grew from 10 in 
June 2002 to 41 in August 2005. Still, there was no attention to the 
equity plans required under Section 1111 b 8 C.
    According to the General Accounting Office (now the Government 
Accountability Office), the Department's work-inprogress was not by any 
means a comprehensive treatment of the requirements, nor did it assist 
states in aligning the federal requirements with existing state 
criteria. According to the GAO's analysis, for example, the 
Department's December 2002 draft guidance provided little more 
information than the plain words of the statute and failed to help 
states navigate some difficult compliance issues.
    In the meantime, former Secretary Rod Paige had begun emphasizing 
additional ``flexibility'' for teachers in rural schools and other 
settings. Under his policy, teachers in rural school systems who were 
highly qualified in at least one subject would have up to three years 
to become highly qualified in the additional subjects they teach. They 
must also be provided professional development, intense supervision or 
structured mentoring to become highly qualified in those additional 
subjects.
    Like rural teachers, science teachers often provide instruction in 
more than one academic content area. Paige decided to allow states, 
using their own current certification requirements, to permit science 
teachers to demonstrate that they are highly qualified either in the 
``broad field'' of science or in individual fields of science, such as 
physics, chemistry, or biology. Finally, he announced that states could 
streamline the HOUSSE for incumbent, multi-subject teachers by 
developing procedures that allow these teachers to demonstrate that 
they are highly qualified all in one process.\2\
``Pie in the Sky'' Reports from States
    Into the void created in part by the absence of strong federal 
leadership, many states provided highly suspect and misleading data 
during the early years of the law, claiming that virtually all of their 
teachers had already met the law's goals with regard to teachers' 
qualifications and their equitable distribution to schools. And, in the 
absence of prodding by the federal government, states and districts 
largely conducted business as usual with respect to hiring and 
assigning teachers to low- and high-need schools and classrooms.
    For example, when it came to filing the first data reports with the 
Department of Education for the 20022003 school year, one-fifth of all 
states reported that 90 percent or better of academic core classes were 
already taught by highly qualified teachers. Twelve states reported no 
data at all. The remaining states made an effort to report what data 
they could, even if it didn't meet the federal requirement.
    Table 1 illustrates just how incomplete and overly optimistic the 
initial state-provided teacher quality reporting was, considering that 
we now know no state met the 100 percent requirement within the 
allotted four-year timeframe.
    At this early stage, some states could report the number and 
percentage of highly qualified teachers, but not the percentage of 
classes taught by highly qualified teachers.\3\ This was and still is a 
critical issue. Still others were unable to report data for high and 
low poverty schools.
    The results were much the same for 2003-2004, the second year of 
the law. After another year with virtually no federal oversight, even 
more states reported nearly-complete compliance with the 100 percent 
highly qualified goal that was still two years away. Of 47 reporting 
states, 31 reported that 90 percent or more of their academic classes 
were taught by ``highly qualified'' teachers.
    It turns out that the data most states reported for the 2002-2003 
and 2003-2004 school years were largely bogus.
Ongoing USDE Failure to Question Teacher Quality Data or Heed Available 
        Reports
    Amazingly, these faulty data on teacher quality were accepted and 
even reported out to Congress and the public without question by the 
Department of Education--despite several indications that the teacher 
quality data might not be accurate.
    During the 2002-2003 school year, the first full school year after 
the law's enactment, the General Accountability Office conducted a 
survey of the 50 states and the District of Columbia and a sample of 
830 school districts. Charged by Congress to determine whether the 
teacher quality provisions of the law were being implemented 
appropriately, the GAO concluded that any survey data of the number and 
percentage of academic core classes taught by highly qualified teachers 
``would not likely be reliable.'' \4\ In particular, the GAO report 
faulted the Department's guidance on implementing the requirements.
    (Of course, states could have acted on their own to implement the 
quality and equity provisions of the law. Even without guidance, the 
statutory language and accompanying regulations are more than specific 
enough.)
    Meanwhile, the evidence contradicting the states' rosy reports kept 
coming in--and kept being ignored. The Council of Chief State School 
Officers conducted a detailed analysis of the Department's own data 
collected by the National Center for Education Statistics in the School 
and Staffing Survey (SASS). In October 2003, CCSSO reported that the 
``SASS data on certification analyzed by state indicated that many 
states are far from the NCLB goal of highly qualified teaching staff in 
all schools and classrooms in grades 7-12.'' \5\ The problem was 
particularly acute in the field of teaching math. In 1994, only 12 
states had over 80 percent of teachers whose main assignment was in 
math who had a major in math or math education. By 2000, only seven 
states had over 80 percent with a major in the field. Similarly, in 
1994 17 states had over 80 percent of teachers whose main assignment 
was in a science field had a major in a science field or science 
education. By 2000, that number had declined to 13 states.
    A December 2003 Education Trust report analyzed state-reported data 
for the 2002-2003 school year regarding the distribution of highly 
qualified teachers and found that states largely reported unreliable or 
questionable data and that the Department of Education took no action 
to insist or to enable the states to report honest data.\6\

  TABLE 1.--PERCENT OF CORE ACADEMIC CLASSES TAUGHT BY HIGHLY QUALIFIED TEACHERS AS REPORTED BY STATES FOR THE
                                              2002-2003 SCHOOL YEAR
----------------------------------------------------------------------------------------------------------------
                                                                            High-poverty
                      State                          State aggregate          schools        Low-poverty schools
----------------------------------------------------------------------------------------------------------------
Alabama..........................................                  35                   29                   36
Alaska...........................................  Data not available   Data not available   Data not available
Arizona..........................................                  95                   90                  100
Arkansas.........................................  Data not available   Data not available   Data not available
California.......................................                  48                   35                   53
Colorado.........................................                  86   Data not available   Data not available
Connecticut......................................                  96                   95                   98
Delaware.........................................                  85                   85                   95
District of Columbia.............................                  43                   37                   44
Florida..........................................                  91                   93                   92
Georgia..........................................                  94                   95                   96
Hawaii...........................................                  80                   73                   84
Idaho............................................                  98                   99   Data not available
Illinois.........................................                  98                   95                  100
Indiana..........................................                  96                   95                   97
Iowa.............................................                  95                   95                   95
Kansas...........................................                  80                   80                   79
Kentucky.........................................                  95                   97                   93
Louisiana........................................                  85                   78                   90
Maine............................................  Data not available   Data not available   Data not available
Maryland.........................................                  65                   47                   76
Massachusetts....................................                  94                   88   Data not available
Michigan.........................................                  95                   90                   99
Minnesota........................................  Data not available   Data not available   Data not available
Mississippi......................................                  85                   81                   87
Missouri.........................................                  95                   90                   97
Montana..........................................  Data not available   Data not available                   97
Nebraska.........................................                  90                   82                   93
Nevada...........................................                  50                   50                   62
New Hampshire....................................                  86                   84                   88
New Jersey.......................................  Data not available   Data not available   Data not available
New Mexico.......................................                  77                   71                 76.5
New York.........................................  Data not available   Data not available   Data not available
North Carolina...................................                  83                   78                   86
North Dakota.....................................                  91                   94                   91
Ohio.............................................                  82                   78                   97
Oklahoma.........................................                  98                   97                   98
Oregon...........................................                  82                   72                   86
Pennsylvania.....................................                  95                   93                   99
Puerto Rico......................................  Data not available   Data not available   Data not available
Rhode Island.....................................  Data not available   Data not available   Data not available
South Carolina...................................  Data not available   Data not available   Data not available
South Dakota.....................................                  89                   79                   91
Tennessee........................................                  34                   35                   33
Texas............................................                  76                   69                   81
Utah.............................................  Data not available   Data not available   Data not available
Vermont..........................................                  92                   93                   92
Virginia.........................................                  83                   77                   87
Washington.......................................                  83                   88                   79
West Virginia....................................                  94                   96                   98
Wisconsin........................................  Data not available   Data not available   Data not available
Wyoming..........................................                  95                   99                   98
----------------------------------------------------------------------------------------------------------------
Source: Department of Education, No Child Left Behind Act, Annual Report to Congress, pp. 21-22, February 2005.

    In a follow-up study conducted between November 2004 and October 
2005, the GAO told Congress that ``the quality and precision of state-
reported data make it difficult to determine the exact percentage of 
core academic classes taught by teachers meeting the requirements.'' 
\7\ The GAO concluded that the progress states had made from the 2002-
2003 to the 2003-2004 school year was due to the increased capacity to 
track and report data, not real improvements in teacher quality.
    In each of these cases, there was no clear response from the 
Department, which simply passed the state data along to Congress and 
the public. The Department's first report to Congress under the 
National Assessment of Title I republished the states' data showing 
that 31 had reported 90 percent or more of classes were taught by 
highly qualified teachers. Only eight states reported that their 
percentage was below 75 percent.\8\
    States' claims--many of them grossly exaggerated and none of them 
audited--went largely unquestioned and unchallenged for another two 
years.
    The non-governmental sector issued similarly optimistic news about 
states' capacity to comply with the teacher quality requirements. The 
Center on Education Policy has monitored the implementation of the NCLB 
by all states and in selected districts for four years. The Center 
conducts its own surveys based on the response of educators and 
administrators to questionnaires. The Center reported earlier this year 
that its own surveys and case studies ``suggest that most teachers 
already meet NCLB's highly qualified requirements and that few 
differences exist in the proportion of highly qualified teachers among 
urban, suburban, and rural districts or districts of different 
sizes.\9\

                 TABLE 2.--EXHIBIT 48: PERCENTAGE OF CLASSES TAUGHT BY HIGHLY QUALIFIED TEACHERS
                                        [As reported by States, 2003-04]
----------------------------------------------------------------------------------------------------------------
                                                     Percent                                           Percent
----------------------------------------------------------------------------------------------------------------
Total                                                     86%
Alabama.........................................          77%   Michigan..........................          92%
Alaska..........................................  ............  Minnesota.........................          99%
Arizona.........................................          96%   Mississippi.......................          93%
Arkansas........................................  ............  Missouri..........................          96%
California......................................          52%   Montana...........................          99%
Colorado........................................          91%   Nebraska..........................          91%
Connecticut.....................................          99%   Nevada............................          64%
Delaware........................................          73%   New Hampshire.....................          73%
District of Columbia............................          New   Jersey............................          94%
Florida.........................................          89%   New Mexico........................          67%
Georgia.........................................          97%   New York..........................          92%
Hawaii..........................................          73%   North Carolina....................          85%
Idaho...........................................          97%   North Dakota......................          77%
Illinois........................................          98%   Ohio..............................          93%
Indiana.........................................          96%   Oklahoma..........................          98%
Iowa............................................          95%   Oregon............................          87%
Kansas..........................................          95%   Pennsylvania......................          97%
Kentucky........................................          95%   Puerto Rico.......................  ............
Louisiana.......................................          90%   Rhode Island......................          76%
Maine...........................................          90%   South Carolina....................          75%
Maryland........................................          67%   South Dakota......................          93%
Massachusetts...................................          94%   Tennessee.........................          58%
Texas...........................................          92%   Washington........................          99%
Utah............................................          69%   West Virginia.....................          96%
Vermont.........................................  ............  Wisconsin.........................          98%
Virginia........................................          95%   Wyoming...........................          99%
----------------------------------------------------------------------------------------------------------------
Note: Forty-seven states provided data for this table, but the national estimate is based on 42 states that
  reported both a numerator and a denominator for calculating the percentage of classese taught by highly
  qualified teachers.

Source: Consolidated State Performance Reports.

    Source: U.S. Department of Education, Institute for Educational 
Services, Office of Planning, Evaluation, and Policy Development, 
National Assessment of Title I: Interim Report, Vol.1. Implementation 
of Title I, p. 75 (February 2006)

                              Section III

Site Visit Reports Provide a Reality Check
    Neither the states nor the Department of Education could keep their 
heads in the sand forever.
    Finally, in mid-2004, two and a half years after the law went into 
effect, federal officials began to visit states to determine whether 
they were complying with the teacher quality provisions.
Compliance Reviews Provide a Reality Check
    Forty of the Department's state reviews were obtained by the 
Citizens' Commission and analyzed for this report. This body of 
evidence, from the Department's own professional review teams, reveals 
stunning evidence of what little progress most states had made on 
implementing the teacher quality and teacher equity provisions of the 
law--as recently as this spring--and how minimally the Department has 
been verifying states' efforts on teacher equity until this point.
    While inconsistent in depth, these site visit reports found a broad 
span of problems with how states were implementing the teacher quality 
and equity provisions of the law. They found that teachers in many 
states were being classified as ``highly qualified'' based on criteria 
that did not match what federal law required. Long-time teachers were 
simply treated as ``highly qualified'' because of their seniority. 
Veteran teachers were deemed ``highly qualified'' based on insufficient 
evidence of subject matter knowledge. State report cards did not 
include all required data about teachers.
State Examples
    Three states reporting the highest percentage of ``highly 
qualified'' illustrate the problems found in these visits.
            Washington State
    Following a May 2005 visit to Washington State, Department of 
Education monitors found that the state had incorrectly reported that 
99 percent of all its teachers were highly qualified because: a) new 
and veteran teachers were considered ``highly qualified'' by virtue of 
holding an elementary or special education degree and b) middle school 
social studies teachers probably lacked evidence of adequate subject-
matter competency.
            Connecticut
    The Department of Education monitoring team reviewed Connecticut in 
January of 2006. This state instituted subjectmatter testing of 
elementary teachers in 1988, so every teacher hired on or after that 
date who also held a bachelor's degree and full state certification 
would meet the federal standard. But Connecticut considered all veteran 
teachers hired prior to 1988, as well has those with the emergency/
provisional license, to be ``highly qualified.'' [NB: The state came to 
an agreement regarding veteran teachers in June 2006.]
    Furthermore, the state had not yet collected teacher data from all 
of its 195 districts, nor did it have a statewide data base that 
included ``highly qualified'' teacher information. The state has a 
licensure and certification database and had been using these data as a 
proxy for its reports that 99 percent of core academic classes were 
being taught by teachers who were ``highly qualified.''
    With few exceptions, Connecticut included all certified teachers, 
even if the teachers had not yet demonstrated content knowledge. Though 
the state admitted, according to the federal monitoring report, that 
these teachers are not yet ``highly qualified,'' it nonetheless failed 
to count them as ``not highly qualified'' [emphasis added].
            Minnesota
    During the Minnesota monitoring review in November 2005, federal 
officials found that the state considered all elementary teachers 
licensed prior to 2001 to be ``highly qualified'' even if they had not 
demonstrated subject matter competency. In addition, Minnesota did not 
require teachers hired after the first day of the 2002-2003 school year 
to take a rigorous test of subject-matter knowledge. Instead, they were 
permitted to use the same procedures the law prescribes only for 
veteran teachers. As a result, the reports that 99 percent of the 
states' teachers were ``highly qualified'' were inconsistent with the 
law.
    These examples from Washington, Connecticut, and Minnesota are 
fairly typical of the compliance issues found in states that had 
consistently reported near perfect compliance from the start.
    Other states had far fewer citations for violations of the legal 
requirements. Typical of those states were issues concerning special 
education teachers, the use of the broad-field social studies 
certificate rather than a subject-specific criteria or test, and 
incomplete reporting of data to parents and on the state report card.
    For example, the Department's review of Arizona in the spring of 
2005 found that the state's High Objective Uniform State Standard of 
Evaluation (HOUSSE) standards were not consistent with the law for new 
and incumbent teachers with respect to determination of subject matter 
knowledge. Other inconsistencies included: differing criteria for 
special education teachers teaching an academic core class; use of 
broad social studies certificate; and granting provisional 
certification to teachers from other states who have not taken the 
Arizona Educator Proficiency Assessment.
Ongoing Inattention to the Teacher Equity Provision in Departmental 
        Reviews
    In Arizona's case and elsewhere, the site reviews were meant by the 
Department to ascertain states' teacher equity compliance as well.
    However, given flaws and problems with states' fundamental 
definitions and reporting capacities, the site reports suggest that 
very few could provide data like the required percentage of teachers at 
each grade span who met the highly qualified standards, much less break 
out their distribution according to student poverty or race (school 
performance is not a measure in the law).
    In addition, these federal monitoring reviews do not seem to have 
given any special concern for the inequitable distribution of teachers. 
It was not included in all reviews. Nor do the monitoring reports 
provide any indication of the quality or the comprehensiveness of the 
state's equity plan--merely that it existed and met the minimum 
statutory requirement. The standards for measuring these teacher equity 
plans were superficial, and neither states nor the Department have 
produced teacher equity plans for public review.
    As a result, the site reviews frequently contain no information for 
teacher equity provisions.
    Of the initial 31 monitoring reviews conducted, the teacher equity 
provision was not mentioned in 14. These states include: Arkansas, 
Delaware, Hawaii, Iowa, Montana, Nebraska, Nevada, New Mexico, North 
Carolina, North Dakota, South Dakota, Vermont, Utah, and Wyoming.
    In 13 states, the matter of the equity plan was included and the 
state was considered to have met the requirement.\10\ These states 
include Alaska, Arizona, California, District of Columbia, Georgia, 
Louisiana, Maine, Michigan, Mississippi, New Jersey, New Hampshire, 
South Carolina, and Washington State.
    Nine state reviews asked about teacher equity and cited the state 
for having no plan: Illinois, Ohio, Oregon, Tennessee, Connecticut, 
Florida, Idaho, Missouri, and Pennsylvania.
    Another critical but frequently missing item according to the site 
reviews was whether the state had met the basic requirement for a 
statewide plan with Annual Measurable Objectives (AMOs) and percentage 
Another critical but frequently missing item accord-increases for HQTs 
for each district and school in the state.

                               Section IV

Talking Tough--Or Opening the Barn Door Farther?

     ``The day of reckoning is here, and it's not going to pass.''
      --Dr. Henry Johnson, U.S. Assistant Secretary of Education.*

    By the summer of 2005, it must have been clear to Department 
officials that their oversight of the teacher quality provisions would 
not withstand any reasonable scrutiny, and that states stood little 
chance of meeting the law's 2006 deadline.
---------------------------------------------------------------------------
    *Associated Press, May 12, 2006.
---------------------------------------------------------------------------
    In response, Secretary Spellings began a belated but pragmatic-
minded attempt to generate meaningful implementation of the teacher 
quality provisions by the states.
    This strategy included developing new and much more specific 
requirements for states regarding the teacher quality and equity 
provisions of the law. At the same time, the Department determined that 
it would give states an extra year to meet the 100 percent requirement, 
assuming that the states were making a ``good faith'' effort to comply 
with the law.
    Given the lack of enforcement until very recently, the Department 
probably had no choice but to give states more time to meet the 
original requirements. However, it remains to be seen whether the 
Department or the states will make gainful use of this additional time.
Revised and Expanded Guidance
    In August 2005, the Department issued another version of the Highly 
Qualified Teachers and Improving Teacher Quality State Grants Non-
Regulatory Guidance. Again, the guidance was labeled a ``draft.'' And 
yet again, there was no attention to the equity plans required under 
Section 1111(b)(8)(C).
    As a result, on the eve of the school year in which all states and 
school districts needed to meet NCLB's highly-qualified requirements, 
the Department still did not have guidance it considered to be 
finalized. Nonetheless, this version of the guidance was more detailed 
about the standard for evaluating the subject matter knowledge of 
veteran teachers, the socalled HOUSSE; how teachers in the middle 
grades must meet subject-matter requirements if they hold a K-8 
certificate; how teachers who teach multiple subjects can demonstrate 
subject-matter knowledge; and what teachers must meet the federal 
``highly qualified'' criteria.
    Even at this late date, however, the guidance still failed to 
address the Sec. 1111 (b)(8) plan for redressing disparities based on 
students' race or income in the assignment of qualified and experienced 
teachers.
    Finally, it is noteworthy that as of the publication date of this 
report, neither this draft of the guidance nor any previous drafts were 
posted on the Department's website. Users of ed.gov are informed only 
that ``Highly Qualified Teachers: Title II Part A Non-Regulatory 
Guidance will be revised soon.''\11\
The ``Good Faith'' Extension
    In the fall of 2005, the Department announced that states would be 
given an extra year to meet all of the teacher quality requirements of 
No Child Left Behind, providing that they had made a ``good faith'' 
effort to comply with the law.
    According to an October 21 announcement, in order to determine if 
it meets the good faith standard a state must (a) have a definition of 
``highly qualified'' that is consistent with the law and is used to 
determine the status of all its teachers, (b) provide the public and 
parents with accurate and complete reports on the number and percentage 
of classes taught by highly qualified teachers, (c) report complete and 
accurate data to the Department of Education, and (d)--perhaps most 
important of all--have taken action to ensure that inexperienced, 
unqualified, and out-of-field teachers are not teaching poor and 
minority children at higher rates than other children.
    The Department reinforced this four-part test in a March 12, 2006 
pronouncement. If a state was making substantial progress and had met 
the good-faith standard, it would not be required to submit a new plan. 
Alternatively, if a state was not making substantial progress but had 
shown good faith, a revised plan would be required. Finally, a state 
that had not made a good faith effort would be required to submit a 
revised plan and would be subject to possible sanctions. The Department 
provided the specific protocol that it would use in placing states in 
one of these three categories. However, the Department had already 
concluded that it would ask most states to submit a revised plan.
New Prominence for Teacher Equity Provision
    At roughly the same time, Secretary Spellings issued a letter to 
Chief State School Officers in which the steps states were taking to 
ensure that experienced and qualified teachers are equitably 
distributed was mentioned as one of the four issues by which a state's 
compliance would be judged.
    This was the first real indication in four years that the 
Department was going to take these provisions seriously. But once 
again, no specific guidance was mentioned, such as the measures that 
would be taken to evaluate and publicly report for a state plan to 
ensure equitable distribution of teacher talent.
The Call for Revised Teacher Quality Plans
    On May 12, 2006, the Assistant Secretary for Elementary and 
Secondary Education, Henry L. Johnson, announced--to the surprise of no 
one--that no state had succeeded in meeting all the teacher quality or 
equity requirements within the original timeframe.
    According to the Department, 29 states had made ``good faith'' 
efforts to comply with the law. Nine states--Alaska, Delaware, Idaho, 
Iowa, Minnesota, Montana, Nebraska, North Carolina, and Washington -
faced possible compliance agreements or partial withholding of federal 
funds because the Department of Education questioned their data and 
level of good faith in carrying out the law.
    The states that were among the handful identified as not having 
made a good faith effort had not, for example, adopted a definition of 
highly qualified that was consistent with the law. The Department has 
threatened to withhold a portion of these states' Title II funds.
    The Department then sent letters in May and June to all of the 
states indicating whether they met the ``good faith'' requirement and 
identifying key elements and provisions that needed to be addressed in 
the revised plans. Some of this information came from the monitoring 
site visits conducted during 2004-2006 (described in the previous 
section). Each state was provided with written documentation, including 
a profile of each state's progress called ``Assessing State Progress In 
Meeting the Highly Qualified Teacher Goal.'' (Appendix B provides an 
example from one state, New Jersey.)

                               Section V

Unanswered Questions
    With these recent actions, the federal government has laid out in 
the most explicit and detailed fashion yet what it will require in the 
coming year and how state performance will be judged.
    Ideally, the Department will require states to take bold action 
during the one-year extension in view of the law's requirement that all 
children achieve the proficient standard in reading and mathematics by 
the 2013-2014 school year.
    Some states, such as Iowa and Connecticut, have already taken some 
steps since May to address issues raised by the Department.
    In early June, Iowa agreed to require that its new elementary 
school teachers take a content exam (Praxis II) as a part of the state 
certification process.\11\
    The following week, Connecticut--which had previously maintained 
that 99% of its teachers were highly qualified--agreed to develop a 
HOUSSE procedure to evaluate whether roughly 13,000 veteran teachers 
were highly qualified or not.
What Happens Next: Scrutinizing Revised State Plans
    All of the states were asked to submit a revised plan by July 7, 
regardless of whether they were deemed to have acted in good faith or 
not. These plans must specify the actions that states agree to take to 
meet the teacher quality provisions of the law, including the 
1111(b)(8) equity plan.
    A protocol, Reviewing Revised State Plans, was provided along with 
the letter to chief state school officers. It contains six explicit 
requirements that a revised plan must contain. These revised plans are 
meant to respond to letters that each state was provided in May. (See 
Appendix C.)
    The Department announced three key issues that it would examine in 
the revised plans which, taken together, represent the most explicit 
and detailed statement to date regarding what is required in the coming 
year and how state performance will be judged.
    First, the revised plans should be based on data, especially 
student achievement data. Schools and districts not making adequate 
yearly progress and groups of teachers, such as those in low-performing 
schools who remain underqualified, should receive particular attention. 
The Department's review will expect to see revised plans structured 
around using available resources to meet the needs of these teachers.
    In addition, the states must have ``a detailed, coherent set of 
specific activities to ensure that experienced and qualified teachers 
are distributed equitably among classrooms with poor and minority 
children and those with their peers.'' Several states had several 
strategies to address the problem but did not have a comprehensive 
plan. The Department has said it will expect ``states to be more 
strategic than they have in the past in encouraging schools and 
districts to pay attention to how qualified teachers are assigned and 
take new actions to address this issue.''
    Last but not least, the states must also complete implementing 
procedures for designating veteran teachers highly qualified, including 
multiple-subject teachers in rural schools, new special education 
teachers who are highly qualified in at least one subject at the time 
they are hired, and teachers who come to the United States from other 
countries to teach on a temporary basis.
Unanswered Questions
    It remains to be seen whether the Department's good faith 
requirements and its future oversight of the teacher quality issue are 
stringent enough to warrant the additional time. It also remains 
unknown how carefully the Department will review the revised state 
plans, and how closely it will monitor and enforce states' progress in 
following them.
    ``Good faith'' tests have in the past proven insufficient to 
generate difficult actions on the part of states, and there is good 
reason to be concerned that the Department's definition of good faith 
may not be sufficiently rigorous or that it may not carefully 
scrutinize states' claims of having made a good faith effort.
    Following are some questions that Congress, advocates, the press, 
and others should be sure to ask in the weeks and months ahead:
    <bullet> What will happen to the states that did not meet the 
Department's ``Good Faith'' requirement?
    According to recent press accounts, some states reportedly are 
already off the list,\12\ including Alaska, Delaware, Minnesota, and 
North Carolina. States on the verge of getting off \13\ include 
Montana, Nebraska, Iowa. That leaves only Idaho and Washington.
    <bullet> What happened so fast in these states that compliance 
action is no longer contemplated?
    <bullet> Will any state be fined, or see federal funding withheld?
    The press has also reported that Department officials don't expect 
to restrict or hold back state funds.\14\ However, Department officials 
have indicated that six unnamed states plus the District of Columbia 
and Puerto Rico will have ``a condition placed on their grant'' that 
will be removed when the state provides evidence that they have met 
their commitment to correct their deficiencies.\15\
    <bullet> How carefully will the department review and how 
vigorously will it enforce the revised plans from states?
    News accounts have already reported that Utah will not submit its 
revised plan on time. It is likely that other states' plans will be 
incomplete.
    <bullet> Will the Department evaluate states' equity plans under 
Section 1111(b)(8) based on actual or likely results, or will good 
intentions and piecemeal measures--whether they reduce disparities or 
not--be satisfactory?
    <bullet> Will the Department take steps, including audits and other 
measures, to discourage states from submitting incomplete, inaccurate, 
and fraudulent data?
    <bullet> Will the Department make states' plans available to the 
public on its website, www.ed.gov?
                                endnotes
    \1\ Editorial Projects in Education, Education Week, Technology 
counts 2006- The Information Edge, Using Data to Accelerate 
Achievement, p. 21. Correspondence with Elizabeth Klemick, Educational 
Projects in Education, May 9, 2006. For individualized state reports 
that include detailed information on the types of data each state 
collects, see www.edweek.org/ew/articles/2006/05/04/35dsr.h25.html.
    \2\ Letter from Secretary Rod Paige to Chief State School Officers, 
and press release, March 15, 2004.
    \3\ The data for the 2002-2003 school year was not reported to 
Congress until February 2005. US Department of Education, No Child Left 
Behind Act, Annual Report to Congress, pp. 21-22 (February 2005).
    \4\ Government Accountability Office, No Child Left Behind Act-More 
Information Would Help States Determine Which Teachers Are Highly 
Qualified, GAO-03-631 (July 2003), http://frwebgate.access.gpo.gov/ 
cgi-bin/useftp.cgi? 
IPaddress=162.140.64.21&filename=d0625.txt&directory=/diskb/wais/data/
gao
    \5\ Rolf Blank, Meeting NCLB Goals for Highly Qualified Teachers: 
Estimates From State Survey Data, Council of Chief State School 
Officers (October 2003). In the SASS, ``highly qualified,'' as defined 
in the NCLBA, is measured and reported for each state using full state 
certification in the assigned field and a college major in the assigned 
field. It is therefore possible to compare teachers' preparation in 
each state in the academic core subjects, as this report does for 
mathematics, science, and English.
    \6\ The Education Trust, Telling The Whole Truth (Or Not) About 
Highly Qualified Teachers, December 2003. The initial data released by 
the Department of Education pursuant to Freedom of Information Act 
requests reveals how incomplete and sparse the raw numbers are when 
submitted to the federal government.
    \7\ Government Accountability Office, No Child Left Behind-Improved 
Accessibility to Education's In formation Could Help States Further 
Implement Teacher Qualification Requirements, p. 3. November 2005 GAO-
06-25.
    \8\ U.S. Department of Education, Institute for Educational 
Services, Office of Planning, Evaluation, and Policy Development, 
National Assessment of Title I: Interim Report, Vol. 1: Implementation 
of Title I, p. 75 (February 2006.) www.ed.gov/rschstat/eval/disadv/
title1interimreport/index.html
    \9\ Center on Education Policy, From the Capital to the Classroom, 
Year 4 of the No Child Left Behind Act, p. 152 (March 2006).
    \10\ Monitoring reviews only provided details about non-compliance. 
If a state is found to have met requirements, federal reviewers do not 
provide any evidence or rationale for that conclusion.
    \11\ Des Moines Register, http://desmoinesregister.com/apps/
pbcs.dll/article?AID=/20060616/NEWS02/ 60616001/1004.
    \12\ See a Missoulian article titled ``Teachers qualified, OPI 
says,'' http://www.missoulian.com/articles/2006/ 06/25/news/local/
znews01.txt.
    \13\ Ibid.
    \14\ Ibid.
    \15\ Email from U.S. Department of Education to Alexander Russo, 
June 2006.
                                 ______
                                 
    [Testimony submitted by Mary E. Penich, Charleen Cain, and 
Barbara Lukas follows:]

Additional Testimony Submitted by Mary E. Penich, Lake County Assistant 
  Regional Superintendent of Schools; Charleen Cain, Teacher Leader, 
   Northern Illinois Reading Recovery Consortium; and Barbara Lukas, 
Teacher Leader and Interim Director, Reading Recovery Training Center, 
                       National-Louis University

    It was indeed a pleasure to attend the hearing of August 28, 2006, 
held by The Honorable Judy Biggert, Member of the House Subcommittee on 
Education Reform Regarding the Reauthorization of the No Child Left 
Behind Act (NCLB). The legislators present exhibited great knowledge of 
NCLB and great interest in the experience and concerns offered by 
experts in the field of education. The invited witnesses were selected 
thoughtfully, and their contributions to the legislators' knowledgebase 
will be invaluable. It is in the interest of continuing the work begun 
at this hearing that the following testimony is submitted. It is the 
writers' hope that this submission will further inform the work of 
legislators charged with overseeing NCLB Reauthorization. The future of 
America's children is at stake, and it is up to all concerned to see 
that in reality no child is left behind regardless of his or her 
circumstances.
    When addressing the reauthorization of NCLB, those involved are 
strongly encouraged to consider the following areas: (1) Early 
Intervention; (2) Accelerated Learning; (3) Ongoing Formative 
Assessment; (4) Research-based Best Practices; (5) Professional 
Development and (6) Parental Involvement. These areas directly address 
the concern of all involved for students and schools who fail to make 
Adequate Yearly Progress as defined by the current law. Proactive 
change in these areas will accelerate this nation's move toward meeting 
NCLB goals.
    Early Intervention requires addressing the needs of students at 
risk of failure very early in their educational careers in order to 
prevent misunderstandings and errors from becoming habitual. When 
errors and misunderstandings are habituated, children must ``unlearn'' 
incorrect conceptions and practices, while learning what is 
appropriate. The longer the misunderstandings and errors prevail, the 
longer the relearning process. Research indicates that students who 
receive early intervention during the first grade narrow or close the 
achievement gap along race/ethnicity and income lines when compared 
with students in a randomly-selected comparison group. A statewide 
study compared students served by The Reading Recovery Program with a 
random sample. The study found that students who successfully completed 
Reading Recovery Lessons either narrowed or closed the achievement gap 
along race/ethnicity lines. The results, presented at the 2004 Annual 
Meeting of the American Educational Research Association, San Diego, 
CA, can be viewed at http: / / www.ndec.us / WebDocs / Presentations / 
AERA % 202005 % 20Closing % 20Gap % 20paper % 20as % 20submitted % 20to 
% discussants.doc.
    In light of this research, it seems reasonable to redefine the goal 
of NCLB by expecting all children to be readers by the end of first 
grade rather than by the end of third grade. Third graders who cannot 
read often fall hopelessly behind their more competent peers. By third 
grade, behavioral and emotional issues complicate these students' 
academic problems. The end results are often referrals for years of 
remediation or special education, which is a far most costly endeavor 
than addressing academic issues early on. Early intervention has the 
opposite effect. Reports out of the States of Ohio and Massachusetts 
illustrate these findings. The State of Ohio research abstract can be 
viewed at http: / / www.readingrecovery.org / sections / research / 
reducingretention.asp. The State of Massachusetts research abstract can 
be viewed at http: / / www.readingrecovery.org / sections / research / 
becauseitmakesadifference.asp.
    Accelerated learning is another essential element in the process of 
narrowing the achievement gap. Low-achieving students who progress at 
the same pace as their more competent peers never catch up with them. 
However, if the pace at which these students progress is accelerated, 
the achievement gap between them and their successful classmates 
narrows or disappears altogether. When districts, schools and teachers 
recognize students' strengths early on, these strengths can be built 
upon in such a way that learning appears to come easily. This 
phenomenon develops skills and builds confidence, allowing tasks of 
increasingly greater difficulty to be mastered easily. The Reading 
Recovery Program provides an excellent example of the possibilities 
fostered by accelerated learning in the areas of reading and writing. 
On-going assessment throughout children's Reading Recovery programs 
informs the teaching which makes acceleration possible.
    Ongoing formative assessment provides the much needed opportunity 
to honor student, school and district progress in accelerated student 
learning. Ongoing research-based assessments allow teachers to measure 
student progress throughout the academic year on a number of occasions, 
rather than to measure student success with a single summative test at 
the close of the school year. Periodic ongoing assessments allow 
teachers to observe misunderstandings and errors early in the learning 
process and to address these before they become habituated. This 
lessens the need for extensive ``re-teaching'' and ``unlearning.'' With 
early and ongoing intervention, students are freed up to engage in 
additional leaning at a faster pace. In addition, individual student 
progress must be noted and honored. Many below grade level students 
grow far more than a year in a single school year. Yet, these students 
and their teachers are labeled ``failures'' because they are not yet 
performing at grade level. Labeling students, teachers, schools and 
districts in this manner discourages rather than encourages further 
progress.
    High quality ongoing and locally accessible professional 
development is essential to district, school, teacher and student 
success. Educators at all levels must be well versed in the theory, 
research and practical applications that underlie best practices. This 
involves utilization of ``in house'' experts who serve as resources to 
staff at all levels of the educational system. The Reading Recovery 
Program provides a globally respected model for professional 
development programs which are ongoing and easily accessible. Trained 
Reading Recovery Teachers, Teacher Leaders and Trainers receive initial 
training and ongoing support throughout their tenure in Reading 
Recovery. In turn, they are available to provide professional 
development to their district and school colleagues and to serve as 
accessible in-house experts.
    Parental involvement is the last and most important consideration 
in the quest for student success. Communication between school and home 
must begin prior to children's arrival at school, it must be two-way 
and it must be ongoing. Parents and guardians must know at the onset 
what the school's expectations are, just as they must be given the 
opportunity to express their expectations to the school. Again, Reading 
Recovery provides an excellent starting point for parental involvement 
and ongoing home-school communications.
    The Reading Recovery Program addresses the six areas addressed 
above through intervention for first grade children who are learning to 
read and write. The program's vision is to teach children to be 
proficient readers and writers by the end of first grade. The program's 
mission is to ensure access to Reading Recovery for every child who 
needs this support. Reading Recovery is a globally respected, research-
based early intervention that has reached 1.5 million first-graders who 
struggle with early reading and writing. Eight of every ten (80 % ) of 
the hardest-to-teach children who complete lessons reach grade level 
standards in 12 to 20 weeks of daily 30-minute lessons. Reading 
Recovery utilizes highly trained teachers and as a result partners with 
more than 20 universities and nearly 500 teacher training sites across 
The United States. The vast majority of schools implementing Reading 
Recovery use federal education funds authorized by The NCLB Act to 
provide professional development and instruction. Many scientifically-
based and peer-reviewed journal articles support Reading Recovery's 
effectiveness.
    In addition, Reading Recovery contributes to school success and 
helps schools to achieve adequate yearly progress by accelerating 
student learning and helping children to make continued progress, 
closing the reading achievement gap between white and minority 
students, reducing unnecessary retentions and referrals to special 
education, providing a Spanish reconstruction--Descubriendo la 
Lectura--for English Language Learners who receive classroom 
instruction in Spanish, reducing the cost of low-achieving students to 
educational systems, providing professional development that benefits 
educational systems at many levels, and integrating research and 
practice through an international network of university faculty. 
Reading Recovery Trained Teachers and Teacher Leaders influence the 
district's or school's entire literacy program across grade levels by 
providing local, ongoing and easily accessible professional development 
and support to colleagues.
    It is our sincere hope that this testimony will be considered 
carefully throughout The NCLB Act Reauthorization Process because it is 
offered by practitioners whose work with children is research-based and 
whose successes are well documented. The immeasurable impact Reading 
Recovery has on the students served is perhaps the better reason to 
give credence to this testimony. This impact is best described by a 
parent's response to his child's program: ``He seems to enjoy school 
more because he can read. He is doing great in school and doesn't feel 
ashamed because he can't read. My son could not read at all when he 
entered the first grade. He was one of the poorest readers in his 
class. After being in the Reading Recovery Program for a few months he 
can read excellent! I could not praise this program enough or the 
teachers.''

                                 <all>

</pre></body></html>
